<html>
<title> - AIR FORCE AND ARMY AIRLIFT AND AERIAL REFUELING FIXED-WING AIRCRAFT PROGRAMS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 110-28]
 
  AIR FORCE AND ARMY AIRLIFT AND AERIAL REFUELING FIXED-WING AIRCRAFT 
                                PROGRAMS

                               __________

                                HEARING

                               BEFORE THE

                    AIR AND LAND FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 7, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                     U.S. GOVERNMENT PRINTING OFFICE

37-316 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                    AIR AND LAND FORCES SUBCOMMITTEE

                   NEIL ABERCROMBIE, Hawaii, Chairman
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
SILVESTRE REYES, Texas               HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ELLEN O. TAUSCHER, California        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
DAN BOREN, Oklahoma                  ROB BISHOP, Utah
HANK JOHNSON, Georgia                MICHAEL TURNER, Ohio
KIRSTEN GILLIBRAND, New York         CANDICE S. MILLER, Michigan
JOE SESTAK, Pennsylvania             PHIL GINGREY, Georgia
GABRIELLE GIFFORDS, Arizona          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                GEOFF DAVIS, Kentucky
[VACANCY]                            W. TODD AKIN, Missouri
                 Heath Bope, Professional Staff Member
                Lynn Williams, Professional Staff Member
                       Ben Kohr, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, March 7, 2007, Air Force and Army Airlift and Aerial 
  Refueling Fixed-Wing Aircraft Programs.........................     1

Appendix:

Wednesday, March 7, 2007.........................................    49
                              ----------                              

                        WEDNESDAY, MARCH 7, 2007
  AIR FORCE AND ARMY AIRLIFT AND AERIAL REFUELING FIXED-WING AIRCRAFT 
                                PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Ortiz, Hon. Solomon P., a Representative from Texas, Air and Land 
  Forces Subcommittee............................................     1
Saxton, Hon. Jim, a Representative from New Jersey, Ranking 
  Member, Air and Land Forces Subcommittee.......................     2

                               WITNESSES

Bolkcon, Christopher, Specialist in National Defense, 
  Congressional Research Service.................................     7
Chandler, Lt. Gen. C.H. ``Howie'', Deputy Chief of Staff for 
  Operations, Plans and Requirements, U.S. Air Force; Lt. Gen. 
  Donald J. Hoffman, Military Deputy, Office of the Assistant 
  Secretary of the Air Force for Acquisition, U.S. Air Force; Lt. 
  Gen. Mark Curran, Deputy Commander, Training and Doctrine 
  Command, U.S. Army; Maj. Gen. (Select) Jeffrey Sorenson, Deputy 
  for Systems Management, Secretary of the Army for Acquisition, 
  Logistics and Technology, U.S. Army; Maj. Gen. Thomas P. Kane, 
  Director of Strategic Plans, Requirements and Programs, Air 
  Mobility Command, U.S. Air Force beginning on page.............    22
Solis, William M., Director, Defense Capabilities and Management 
  Issues, Government Accountability Office.......................     3
Sullivan, Michael J., Director of Acquisition and Sourcing 
  Management Issues, Government Accountability Office............     5

                                APPENDIX

Prepared Statements:

    Bolkcon, Christopher.........................................    81
    Curran, Lt. Gen. John M., joint with Maj. Gen. Jeffrey A. 
      Sorenson...................................................   110
    Ortiz, Solomon P.............................................    53
    Solis, William M., joint with Michael J. Sullivan............    57
    Hoffman, Lt. Gen. Donald, joint with Lt. Gen. Howie Chandler, 
      and Maj. Gen. Thomas Kane..................................   102

Documents Submitted for the Record:

    Defense Transportation, Study Limitations Raise Questions 
      about the Adequacy and Completeness of the Mobility 
      Capabilities Study and Report..............................   117
    Slides and map submitted by General Kane.....................   150

Questions and Answers Submitted for the Record:


    Mr. Abercrombie..............................................   157
    Mr. Akin.....................................................   162
    Mr. Johnson..................................................   164
    Mr. Meek.....................................................   164
    Mr. Miller...................................................   159
    Ms. Tauscher.................................................   161
  AIR FORCE AND ARMY AIRLIFT AND AERIAL REFUELING FIXED-WING AIRCRAFT 
                                PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Air and Land Forces Subcommittee,
                          Washington, DC, Wednesday, March 7, 2007.
    The subcommittee met, pursuant to call, at 3:03 p.m., in 
room 2118, Rayburn House Office Building, Hon. Solomon Ortiz 
presiding.

OPENING STATEMENT OF HON. SOLOMON ORTIZ, A REPRESENTATIVE FROM 
            TEXAS, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Ortiz.The subcommittee will come to order.
    Chairman Abercrombie has been delayed in getting back from 
Hawaii, so he has asked that I sit in to get the hearing 
started.
    Today we will receive testimony from the Government 
Accountability Office (GAO) and Congressional Research Service 
(CRS) witnesses, plus Air Force and Army fighting experts, 
about the airlift and the aerial refueling aircraft programs.
    Today's hearing will focus on parts of the Department of 
Defense's (DOD) recent mobility study and its conclusions, 
which shape the Air Force and Army force structure requirements 
for aerial refueling and airlift aircraft.
    Over the past 10 years, the United States has reduced its 
Cold War infrastructure and closed two-thirds of its forward 
bases. Yet, we have increased our operational tempo of 
deployments. Our aircraft platforms continue to age without 
replacement due to procurement shortfalls that began in the 
last century.
    We now see the results of these challenges as we look at 
our aging airlift and the tanker fleets of aircraft. These 
aircraft, including even our new strategic airlifters, the C-
17s, are getting used up far faster than we had planned.
    In January 2006, the Department of Defense released a 
mobility capability study, or MCS, and they are currently 
conducting other airlift and tanker studies.
    There are many programs and associated issues that we would 
like to discuss today regarding the C-17, the C-5, the C-130 
airlifters, the KC-X, the KC-135 tankers, and the Joint Cargo 
Aircraft (JCA).
    To help us understand the results of the MCS, to give us 
insight into program issues and the way forward, for 
recapitalization, we have two panels of witnesses today.
    For our first panel, I welcome Mr. Solis--good to see you 
again, sir--Director of Defense Capabilities and Management of 
the Government Accountability Office; Mr. Michael Sullivan, 
Director of Acquisition and Sourcing Management of the 
Government Accountability Office; and, Mr. Chris Bolkcom, 
Specialist in National Defense from the Congressional Research 
Service.
    We want to welcome you and thank you for joining us today.
    But before we begin with witnesses' opening statements, let 
me call on my good friend, the gentleman from New Jersey and 
ranking member of the subcommittee, Mr. Saxton, for any remarks 
that he would like to state today.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE FROM NEW JERSEY, 
        RANKING MEMBER, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Saxton. Mr. Chairman, thank you very much. I appreciate 
you holding this very important hearing on airlift and 
refueling programs for the Air Force and, of course, for their 
best customer, the Army.
    I am very pleased to be here because I believe the issues 
we are addressing today are absolutely crucial to the nation's 
ability to meet our nation's national security strategy.
    We have several witnesses before the committee today, and 
they come to us with a tremendous amount of knowledge on these 
extremely important issues.
    I would like to welcome all of you gentlemen. Thank you for 
being here. We appreciate it, and I know I speak for myself as 
well as for Chairman Abercrombie, who is not here of course.
    We are here to examine the Department of Defense's airlift 
and aerial refueling program requirements. These requirements 
and capabilities have gaps that vary against a backdrop of 
ever-changing global security challenges.
    I am reminded, Mr. Chairman, of the first time I went to 
Iraq and was briefed there on airlift capabilities and 
requirements. We were using C-130's tactically in the country, 
and, as you just mentioned, as the C-130's become less capable 
because of wear and tear, we have supplemented them with a 
permanent contingent of 20 C-17s in country to do tactical 
lift.
    The programs we are talking about are an enormous part of 
the defense budget and, for that reason, we, the Congress, like 
to be very sure before we commit to a course of action.
    Part of being sure is to gather as many facts, study the 
issue and to examine all of the alternatives.
    We first saw mobility requirements study MRS-05 in the 
spring of 2001. That study was designed to tell us how many 
millions of ton miles per day of cargo capacity we needed to 
meet our national security strategy. With those conclusions, we 
could then go about the business of developing a fleet of 
aircraft to fill that requirement.
    The problem here, of course, is that MRS-05 was initiated 
prior to the attacks of 9/11 and was outdated even before it 
was released.
    Next, we had, as you mentioned, Mr. Chairman, the Mobility 
Capabilities Study, MCS. Started in the summer of 2004, MCS was 
designed to take a hard look at the nation's airlift 
requirements as the global war on terror (GWOT) unfolded.
    Unfortunately, the MCS, at least in my opinion, didn't say 
much. It validated that we can do the things that we are doing 
with the assets we have. There were no hard questions asked by 
the MCS and there were certainly no answers in MCS. Yet, we 
waited for MCS, hoping that it would steer us in the right 
direction.
    Along with MCS, we awaited the QDR to be released. The QDR 
finally arrived only to call for five more studies related to 
airlift requirements and provided us little insight into the 
nation's true airlift capability needs.
    Today we are waiting for MCS-06 to be released. MCS-06 is 
designed to incorporate the findings of the five other studies 
called for in the QDR.
    On top of all these studies, we wait for DOD requirement 
validations, Nunn-McCurdy certifications, operational test 
results and fleet viability reports, while we are sitting 
around waiting for these reports, studies and analyses.
    In a world that is moving much faster than our bureaucracy, 
we, as a nation and the Congress, are faced with some tough 
decisions and everyone I talk to tells me they are waiting on 
another study before they can answer our questions.
    While we are waiting for those studies, let me share some 
facts.
    The fiscal year 2008 budget request is here. Long lead 
suppliers for C-17 are being issued stop-orders. The line is 
scheduled to close in 2009, although I received a call last 
week that said it may close even sooner or may begin to phase 
down even sooner.
    The Army and the Marine Corps are increasing their end-
strength by 65,000 personnel, I believe, increasing the 
requirement.
    The weight of most armored vehicles now required in Iraq 
precludes the use of C-130 aircraft. We do not know the final 
weight of the Army's future combat system nor has it been taken 
into account in establishing future requirements.
    The number of improvised explosive Device (IED) attacks 
continues to grow. The one sure way to keep our troops out of 
that threat is to keep them off the roads.
    The global war on terror is just that, a global war that is 
being fought by many nations and many continents.
    We are faced with several decisions regarding the nation's 
airlift and tanker requirements. We cannot afford to put off 
those decisions in order to wait on another report, because as 
we wait, the world continues to change around us.
    To be clear, I am not advocating disregarding any of our 
current policies. I am making one simple point: Reports don't 
make decisions; leaders make decisions.
    Thank you, Mr. Chairman. I look forward to hearing from our 
witnesses.
    Mr. Ortiz. Without objection, all witness statements will 
be entered for the record.
    And, Mr. Solis, it is all yours. You can proceed with your 
opening statement, sir.

 STATEMENT OF WILLIAM M. SOLIS, DIRECTOR, DEFENSE CAPABILITIES 
    AND MANAGEMENT ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Solis. Thank you, Mr. Chairman.
    Chairman Ortiz, Ranking Member Saxton and members of the 
subcommittee, I am pleased to be here to discuss the 
development of aircraft program requirements and issues related 
to the acquisition process.
    Before I review our work concerning DOD's efforts to assess 
our future mobility needs, allow me to summarize what I am 
going to tell you: Good analysis equals good requirements, 
which support good decision-making.
    We have spent the last year reviewing DOD's efforts to 
assess future mobility needs and can state emphatically that 
this is a very complex process, with many moving parts.
    There are no easy answers to very tough questions. However, 
we do believe that distinguishing wants from needs starts with 
good analysis based on good data modeling.
    We recently issued our report on high-risk areas in the 
Federal Government, which was DOD acquisition processes as one 
of the longstanding areas of concern.
    Acquisition has been on this list since 1990. As we have 
reported, DOD knows what needs to be done to achieve more 
successful outcomes, but finds it difficult to apply the 
necessary discipline and controls or assign much needed 
accountability.
    We have reported in the past that a sound business case for 
acquisition contains firm requirements, mature technologies, a 
knowledge-based acquisition strategy, a realistic cost 
estimate, and sufficient funding.
    However, we found that many of these elements are missing 
or incomplete as DOD and the services attempt to acquire new 
capabilities.
    Persistent acquisition problems include failure to identify 
needs versus wants and to limit cost growth, schedule delays 
and quantity reductions, but fiscal realities will not allow 
budgets to accommodate these problems any longer.
    Today I will highlight some of the issues related to the 
analysis supporting the DOD's mobility capabilities and 
requirements and Mike Sullivan will discuss actions that are 
needed to improve the outcome of weapons system acquisitions.
    DOD has an obligation to deliver high-quality products to 
war-fighters when they need them at a price the country can 
afford. However, our work shows that acquisition problems will 
likely persist until DOD provides a better foundation for 
buying the right things the right way.
    This foundation begins with setting requirements that are 
based on adequate and complete analysis using current and 
operational data and updated and effective models.
    For the past several years, we have reported our concerns 
with the analysis done to support requirements and have 
recently issued two reports that raise concerns about the 
quality of analysis underpinning programmatic decisions 
surrounding the DOD airlift requirements.
    In September 2006, we issued our report on DOD's mobility 
capability study, or the MCS. The MCS determined that the 
projected mobility capabilities are adequate to achieve U.S. 
objectives with an acceptable level of risk during the period 
fiscal years 2007 through 2013.
    That is, the current inventory of aircraft, ships and pre-
positioned assets and other capabilities are sufficient in 
conjunction with host nation support.
    In our report, we stated that conclusions of the MCS were 
based on incomplete data, inadequate modeling and metrics that 
did not fully measure stress on the transportation system.
    We further observed that the MCS results were incomplete, 
unclear or contingent upon further study, making it difficult 
to identify findings and evaluate evidence.
    It is not clear how the analysis was done for the study to 
support DOD's conclusions and we suggest that decision-makers 
exercise caution in using the results.
    This year we issued a report on the lack of mandatory 
analysis to support a pasture or cargo capability for the new 
replacement refueling aircraft, the KCX tanker.
    Contrary to mandatory Air Force implementing guidance, the 
Air Force proposed a capability without an identified need, a 
requirement that was not supported by need and not underpinned 
by analysis.
    Air Force officials could not provide supporting 
information sufficient to explain this discrepancy between the 
required analysis and the proposal.
    In closing, as I said at the beginning of my testimony, 
acquisition problems will persist until DOD provides a better 
foundation for buying the right things the right way.
    This concludes my oral statement. I will be happy to answer 
any questions that you may have.
    I will now turn to Mike Sullivan for his comments.
    [The joint prepared statement of Mr. Solis and Mr. Sullivan 
can be found in the Appendix on page 57.]
    Mr. Ortiz. Mr. Sullivan.

 STATEMENT OF MICHAEL J. SULLIVAN, DIRECTOR OF ACQUISITION AND 
  SOURCING MANAGEMENT ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Sullivan. Thank you, Mr. Chairman, members of the 
subcommittee.
    Over the last several years, we, the GAO, have examined 
weapon acquisitions from the perspective of best practices for 
product development. We have found that successful product 
development programs begin with a sound business case, as Bill 
was alluding to, business cases that provide evidence that a 
product can be developed and produced if it has proven 
technologies at the outset, there is design knowledge at the 
right times, and adequate and stable funding is available, and 
then the business case must be executed through an acquisition 
process that is anchored in knowledge to reduce risk.
    Basic systems engineering practices should provide the 
underpinning for all of this.
    Without these kind of practices in place, a cascade of 
negative effects results in cost increases and delays in 
getting new capability to the war-fighter.
    While DOD has included many of these best practices into 
its acquisition policies, its programs still often do not 
follow through on them. The underlying cause for this is the 
department's inability to enforce those policies at the 
programmatic level.
    Airlift acquisitions are not immune to this and have 
experienced unnecessary cost growth and schedule delays as a 
result.
    In the past 25 years, DOD has invested more than $140 
billion on airlift and tanker forces. Between 2007 and 2011, it 
plans additional investments of nearly $32 billion. Roughly a 
third of this is planned for four ongoing programs under 
discussion today.
    These programs include programs to modernize the C-5 and 
the C-130 avionics systems, re-engine the C-5 aircraft and 
develop the C-130 airlifter.
    All of these programs were considered low technological 
risks because they relied on proven commercial technology when 
they began. However, they have not delivered on their original 
business cases.
    As a result, each program has encountered some difficulty 
in moving into production and delivering to the field.
    Poor results in each program stem, at least in part, from a 
failure to use basic systems engineering practices to do three 
things. First, fully analyze requirements and the resources 
that are needed to integrate the proven technologies into a 
military system; second, begin system demonstration only after 
you have stabilized the design; and, three, demonstrate that 
the aircraft will work in its intended environment before you 
make large production investments.
    The net effect of the problems across all four of these 
programs is additional unplanned expenditures so far of $962 
million and a longer wait than planned for the war-fighter to 
get the equipment delivered to him.
    For example, the Air Force now expects by 2011 to have 
completed the modification of about 135 fewer C-130 airlift 
aircraft when compared to its plan 2 years.
    There could be additional cost increases and schedule 
delays reported in the near future. Programs' current budget 
indicates that total costs have recently increased almost 
another $700 million and planned quantities have been reduced 
from 434 to 268, nearly doubling the unit costs for the 
Avionics Modernization Program (AMP).
    The program recently notified Congress of a critical Nunn-
McCurdy breach concerning this.
    I will conclude by making five points.
    First, DOD will continue to face big challenges in 
modernizing its forces, especially with the new demands on the 
Federal dollar.
    Second, the four acquisition cases that I cite in this 
testimony are not atypical and, in fact, were not as complex as 
most major acquisitions. Even with no major technological 
invention to meet war-fighters' needs in these cases, they have 
achieved suboptimal results in terms of costs and deliveries.
    Third, there are major consequences to these outcomes. The 
war-fighter does not receive needed capability on time and the 
department and the Congress must spend additional unplanned 
money to correct mistakes.
    Fourth, a product development process based in knowledge, 
steeped in best practices from systems engineering can solve 
many of these problems that happen before they start.
    And, finally and perhaps most important, DOD knows how to 
do this and, in fact, already informs its acquisition policy 
with systems engineering rules. It should redouble its efforts 
to enforce these policies on programs by ensuring, first, that 
the right mix of programs, given all available resources, is in 
the mix; second, establishing sound business cases for each one 
of those programs; and, third, by holding people accountable 
for better cost, schedule and performance results as they 
execute those programs.
    That concludes my remarks.
    [The joint prepared statement of Mr. Sullivan and Mr. Solis 
can be found in the Appendix on page 57.]
    Mr. Ortiz. Thank you, sir.
    Mr. Bolkcom.

   STATEMENT OF CHRISTOPHER BOLKCOM, SPECIALIST IN NATIONAL 
            DEFENSE, CONGRESSIONAL RESEARCH SERVICE

    Mr. Bolkcom. Thank you, Mr. Chairman.
    Mr. Chairman, distinguished members of the subcommittee, 
thanks for inviting me to speak with you today about airlift 
and aerial refueling. As requested, I will address the 
potential oversight issues for this and future legislative 
cycles.
    First, I will address the KC-X, the Air Force's plan to 
recapitalize its aging tanker fleet. The Air Force hopes to 
begin replacing its 500 KC-135 tankers with a 179 new aircraft, 
either the Boeing KC-767 or the KC-30, made by Airbus and 
Northrop Grumman.
    Media reports have raised concerns that this competition 
may be biased against Airbus' larger aircraft. After an initial 
review, CRS found that as DOD defined its tanker requirements, 
the KC-X competition does not appear biased in favor of either 
aircraft.
    Another issue is whether the Air Force plan is affordable. 
In 2006, DOD's tanker analysis of alternatives found that 
buying new commercial aircraft was the most cost-effective way 
to initially recapitalize the KC-135 fleet, but that overall 
affordability was an important consideration.
    Purchasing new aircraft is more capital intensive than 
other options, such as re-engining KC-135Es, buying used 
aircraft, and leasing aerial refueling services.
    The Air Force has consistently objected to these other 
options and hopes to purchase approximately 350 more new 
aircraft after KCX.
    Congress will have future opportunities to examine the 
efficacy of buying used aircraft or leasing tanker services. 
However, the Air Force wants to retire its last KC-135E 
aircraft in fiscal year 2008. If it is successful, the re-
engining option will be moot.
    The final point on tankers is that the requirement is 
unclear. DOD's last study on tanker requirements in 2001 is 
outdated. The 2006 mobility capabilities study, or MCS, 
provided guidance on tanker capabilities, but it did not 
estimate required force size.
    Further, there is debate among the acquisition community, 
the mobility community and the combatant commanders on specific 
tanker requirements, such as airlift capacity.
    My second subject is long-range airlift. The airlift 
requirement is also imprecise and can be met in different ways.
    The MCS found that DOD's airlift programs could meet the 
national military strategy with moderate or acceptable risk. 
But these are subjective terms and a close examination of this 
classified study and the recent addition of 10 C-17s to the 
plane inventory could lead many to perceive the risk as 
actually being low.
    As the C-17 production line wanes, pressure is building to 
procure more aircraft. This brings C-17 funding in direct 
competition with C-5 modernization.
    There are strong arguments in favor of both programs, but 
it is not simply an either/or competition. Broader tradeoffs 
exist because more airlift capacity in the tanker fleet could 
make smaller C-5 or C-17 fleets acceptable.
    Because the C-17 can perform both long-and short-range 
airlift, it may compete against programs like the C-130 for 
funding and for mission.
    Last, I will address short-range airlift, specifically the 
C-130 and joint cargo aircraft programs.
    Again, a number of aircraft are competing for limited 
funding to satisfy an ambiguous requirement. C-130J procurement 
competes with the C-17 and with the modernization of older C-
130 models.
    In fiscal year 2006, for example, DOD proposed terminating 
the C-130J, in part, because modernizing older C-130's was 
cheaper. Since then, C-130J funding was reinstated and 
procurement of nine aircraft is planed in fiscal year 2008.
    Conversely, C-130 modernization programs are now being 
reduced, as Mike just mentioned.
    The Joint Cargo Aircraft program is, in many ways, a 
shotgun marriage between Army and Air Force programs. There is 
noteworthy disagreement between the services on how this 
aircraft would be used.
    Formally, the Air Force agrees with the Army's initial 
vision, but is still defining its own final requirements.
    An issue for Congress is whether the Army could begin 
acquiring the Joint Cargo Aircraft only to find that the Air 
Force's final requirements are not easily met by the aircraft 
chosen. If this turns out to be the case, it could mean costly 
retrofits or even the need for a different aircraft.
    Mr. Chairman, I appreciate the opportunity to appear before 
you and look forward to any questions you may have.
    [The prepared statement of Mr. Bolkcom can be found in the 
Appendix on page 81.]
    Mr. Ortiz. Thank you so much, Mr. Bolkcom.
    Maybe you can expand a little bit to help us understand the 
capabilities about the C-5 and the C-17 aircraft and why they 
are important to the Air Force inventory.
    Could you please compare and contrast what advantages both 
give to the Air Mobility Command in moving cargo and supplies 
to the war-fighter, if you can elaborate a little bit on that?
    Mr. Bolkcom. I would be happy to, sir.
    Both airplanes are long-range strategic platforms and what 
distinguishes them from commercial carriers, such as Civil 
Response Air Fleet (CRAF), are a number of things, but one of 
the most important is the ability to carry outsized and 
oversized cargo, like Patriot antimissile systems, Apache 
helicopters and the like. They provide a certain capability 
that you just can't find anywhere else in that regard.
    I do note that in an earlier hearing, General Mosley 
characterized the C-5 as ``a little bigger than the C-17.'' 
And, respectfully, I believe that General Mosley might have 
misspoken, because Air Force planning factors show it is almost 
twice as big. Depending on what you are carrying, it can carry 
twice as many larger outsized objects or twice as many pallets. 
So there is a nontrivial difference between the two in terms of 
their size.
    And the final point I will just make is although quite 
capable, the C-5 is limited to large prepared runways, where 
the C-17, of course, can do both short-range austere operations 
and the longer operations.
    Mr. Ortiz. The ranking member, Mr. Saxton.
    Mr. Saxton. Mr. Chairman, I think I would like to yield my 
time to one of the junior members who may not have had an 
opportunity to ask questions in the last hearing.
    Mr. Ortiz. Do you want to single anybody out?
    Mr. Saxton. Mr. Turner.
    Mr. Turner. Thank you, Mr. Saxton. I greatly appreciate 
that.
    There are a couple things that interest me about the 
subject matter that you have been testifying about.
    One is General Mosley and Secretary Wynn have been talking 
about concerns of the aerospace industry to meet the capacity 
needs of the Air Force and it certainly seems that inherent in 
all of our concerns with the acquisition process, the health of 
the underlying industry's ability to meet our needs is 
certainly an important one.
    Do you have any thoughts or comments concerning the 
aerospace industry's overall capacity in looking at future 
acquisitions?
    Mr. Bolkcom. I would be happy to address that, sir.
    I think that the way you phrased it actually confuses me a 
little bit, because when I look at the Air Force plans, they 
are actually planning to purchase fewer aircraft than our 
industry has the capacity to build.
    The over-capacity tends to be the problem, not an under-
capacity. I didn't hear his testimony.
    Mr. Turner. Their perspective was in the future, that as we 
begin the process of turning the spigot off and constraining 
what we are currently acquiring, that the loss of production 
capacity can have an impact on our abilities in the future.
    And, certainly, if you look at the issue of the tankers, 
our acquisition planning for replacement and then looking at 
those aircraft, the amount of time that will expire before all 
the aircraft are replaced and what their service would have to 
be before we then are able to replace them based on the 
capacity of the aerospace industry is certainly a very lengthy 
projection.
    Mr. Bolkcom. Specifically on that, sir, I think you have 
characterized it correctly. The days of buying 100 aircraft a 
year are really gone. So those old models of the industrial-
government relationships have got to change and they have 
changed and, frankly, that is one of the stronger arguments 
against purchasing just new aircraft.
    Certainly, that is an important part of recapitalizing the 
fleet, perhaps the foundation, but I agree with that assessment 
that buying 15, 17, 20 a year doesn't recapitalize the fleet 
very quickly and still does not reduce the average age of our 
fleet very quickly.
    Mr. Turner. And, therefore, then has an impact of reducing 
the overall capacity of the industry in case we should look to 
trying to close the gap at a quicker pace or have higher needs.
    Mr. Bolkcom. That would be one approach.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Ortiz. We are going to try to see if we can stick to 
the 5-minute rule, but at the same time, give sufficient time 
for the witnesses to respond to the question, because we do 
have two panels. This is the first panel, then we have the 
second panel.
    Mr. Smith.
    Mr. Smith. I will strive to be quick, Mr. Chairman. I 
appreciate that.
    First of all, I just want to thank you gentleman and the 
Air Force for their work on the refueling tanker issue. I know 
that wasn't easy, and I know my hometown company there at one 
time or another didn't make it easy for you. So I appreciate 
that that process is being moved forward and we have got a 
decision date and the project is going forward. I know that 
wasn't easy. I appreciate you working that.
    My question is on the airlift piece, in terms of what we 
need to have the airlift between the C-17 and the C-5 and the 
130's, where you think we are at, what we need to add. I know 
there are questions about that. Do we have sufficient airlift 
now, a sufficient plan? What are the major challenges in that 
area?
    And, second, not to insert my own subcommittee into this 
discussion, but I chair the terrorism subcommittee, 
jurisdiction over special ops. Special ops folks in particular 
have a need for an updated C-130, and they are, as you know, 
dependent upon the Air Force for getting that set up to 
transfer it over to them.
    If you could give me an update on when that update--and the 
130's specific to the special ops needs, how that is 
progressing. So just those two pieces of the question.
    And, forgive me, I don't know which one of you would be 
best qualified to answer that, but I will let you figure out 
amongst yourselves. Thank you.
    Mr. Solis. I will take a first crack at it.
    In terms of the needs, right now, if you go back, and 
recognizing that there were limitations on the MCS, it didn't 
indicate that there was adequate airlift in the inventory to 
take care of the existing missions.
    Having said that, there are things that have changed since 
the MCS with regard to things like pre-positioning of Army 
equipment that have changed possibly some of those ideas and, 
also, recognizing that there are still studies under way for 
intratheater lift.
    So it is a little muddied at this point as to exactly how 
much in terms of lift is needed at this point.
    Mr. Smith. Do you have an idea of when we are going to 
clarify those questions?
    Mr. Solis. Well, the studies are under way. We don't have 
visibility, that is, GAO doesn't have visibility over where 
those studies are at. But my understanding is that they are 
under way.
    Mr. Bolkcom. I would add on that subject, sir, I think the 
larger challenge is to take a holistic view of our airlift 
needs and although the MCS was the first sort of comprehensive 
study by the participants of the mission, it didn't look at 
certain aspects of lift.
    The thing I would also mention is that we do have an 
evolving sort of need and it is questionable how useful 
oftentimes the metrics are.
    Mr. Smith. That is something I have often wondered about. 
We do a fabulous study that takes two years and when it is 
done, it tells you exactly what we needed two years ago. And 
how do we make sure we update that a little bit more quickly?
    That is obviously a problem throughout the military, but 
this is an area----
    Mr. Bolkcom. So really it comes down to comfort level in 
terms of sort of public policy-making, how much risk are you 
comfortable with, are you taking a holistic approach, looking 
at pre-positioned stocks, capacity lift and the like.
    My view, and I will make this my last comment, is the 
military is incredibly flexible and creative in terms of 
satisfying their military challenges and a shortfall in their 
lift can be made up with another way.
    Mr. Smith. And my second question I realize is better 
suited for the next panel, unless one of you want to take a 
stab at it. And I am not sure I am going to be here for the 
next panel, so if not, those of you who are going to be on that 
can consider that and submit it for the record and just get the 
answer to my office when you get a chance.
    Mr. Sullivan. Just so we understand, I guess, it is 
something we could probably also get for you.
    Were you asking about where they are in terms of 
delivering----
    Mr. Smith. Yes.
    Mr. Sullivan [continuing]. For special ops.
    Mr. Smith. Right.
    Mr. Sullivan. I don't have a complete answer to that yet, 
but we could certainly get that and get back to you.
    Mr. Smith. Thank you.
    Thank you, Mr. Chairman.
    Mr. Ortiz. The gentleman from New Jersey, Mr. LoBiondo.
    Dr. Gingrey, do you have a question, sir?
    Dr. Gingrey. Mr. Chairman, thank you. I am going to address 
a question to Mr. Bolkcom.
    Mr. Bolkcom, you outline in your testimony that the C-5A 
fleet has at least 25 years of life remaining and investment in 
the modernization would be recouped for decades. And, 
additionally, current estimates of the per aircraft cost of AMP 
and Eligibility Enhancement and Re-engining Program (RERP) 
combined are one-third that of a new C-17.
    And, in fact, as you pointed out, and I am glad you did 
this, that the C-5 will actually carry almost twice the payload 
of a C-17 and I also read in your testimony that we are leasing 
Russian AN-124 Condor aircraft to carry outsized and oversized 
cargo in both Operation and Enduring Iraqi Freedom, because we 
didn't have enough C-5 availability.
    So that DOD is outsourcing missions to Russian aircraft 
shows us, I think, that C-5 can perform missions that no other 
aircraft in our fleet can accomplish.
    Doesn't this make the case that we should be supporting 
modernization of an aircraft that can perform critical missions 
no other aircraft can, especially in light of the fact that the 
C-5 has a 70 percent service life remaining and it can be 
modernized at a fraction of the cost of a new C-17?
    And, again, any one of the three of you can respond to 
this. In the president's 2008 budget, I didn't see any request 
for C-17s. In fact, I think we have maybe 10 more than was 
recommended in the fleet that we really need something like 190 
aircraft.
    So I am just not sure that we--all these studies and 
everything would suggest that we need this balance, and, yet, 
what we heard from the secretary and from the chief sort of 
contradicted what was in the president's budget for 2008.
    So if you can respond to that, I would appreciate it.
    Mr. Bolkcom. Yes, sir. I couldn't have said it better 
myself, but as a CRS guy, of course, I am not going to say 
that. But I think your summation of the facts were very 
powerful.
    The point I would just make is the Air Force program of 
record currently is to modernize all the C-5s. So that is their 
plan.
    And we have read in the open press that they have 
experienced some cost growth in RERP especially that we have 
heard anecdotally may cause some changes in the program, but 
that, again, remains to be seen and it is really for the Air 
Force to bring up.
    Mr. Sullivan. I guess I would just note that I would 
probably reinforce that a little bit. The thing that would be 
troubling right now is the problems that the C-5 RERP has had 
and I think they are looking at the costs now.
    They are going to probably come out with a new cost 
estimate. There are problems on the program that are going to 
probably be fairly costly. So I think that is something we need 
to keep in mind.
    Dr. Gingrey. Maybe when we hear from my colleague from 
Georgia, Mr. Marshall, we will find out a little bit more about 
those costs and the specifics of that, because I know he is 
extremely knowledgeable about it. But I appreciate it.
    Any further comments from the GAO?
    I yield back, then, Mr. Chairman. Thank you very much.
    Mr. Smith [presiding]. A lot of pressure on you now, Jim, 
but your expertise has been called upon and you are up. Mr. 
Marshall?
    Mr. Marshall. Thanks, Mr. Chairman.
    And I don't know whether I need to thank you, Mr. Gingrey. 
I shouldn't have said anything about you riding up just one 
flight earlier today. [Laughter.]
    It is better for your health, by the way, to walk those 
flights of stairs.
    I do have questions about the C-5A, C-17 and joint cargo 
aircraft. I have had lots of conversations on this subject.
    If I recall correctly, it was the Institute for Defense 
Analysis, at the request of the Senate, concluded in 2002, 
after a lengthy study, that the RERP AMP for C-5A/C-5B made 
absolute sense and they considered all different configurations 
that we might go with.
    I am not sure whether it is IDA or some other group, but 
the study was quite clear and it wasn't a close call.
    And so we decided to go ahead and do that. I now hear Air 
Force saying, ``Lockheed, the costs are going up unacceptably 
here,'' and the dynamic is changing and the cost may to get a 
point where it is no longer cost-effective to consider RERPing 
and AMPing these C-5As.
    I have suggested to Lockheed that Lockheed lock in a price. 
I don't see any reason why Lockheed can't do that and, frankly, 
would advise Lockheed, if it wants to have this business, to go 
ahead and do it rather than keep up in the air the question 
concerning how much cost we are going to incur.
    In talking with the Air Force, I understand there are 29 or 
31 C-5--well, all but two of which are C-5As, two C-5Bs, that 
Air Force simply considers to be, as Chief Mosley describes it, 
``hard broke.''
    Are you gentleman familiar with that? You are not.
    We have torn down a C-5A and concluded that its frame was 
good to go for quite some time, which would justify the RERP/
AMP investment and the viability board has said the C-5As are 
good to go.
    But we just need to hear more about those that have been 
specifically identified as ones that should be retired.
    So it is a twofold thing here. It is not retire all the C-
5As, but there are some that just seem to be so broken that it 
doesn't make sense to fix them. They would like to permission 
to retire those. We need to know more about that.
    Then the second thing is this quandary we are in with 
regard to rising costs and an inability apparently to manage 
the program as well as it needs to be managed.
    Where KC-X is concerned, are any of you gentlemen involved 
at all in the process of thinking through how in the 
acquisition process we get an agreement from the Original 
Equipment Manufacturer (OEM) that is appropriate so that we 
know how sustainment, modernization, maintenance is going to 
occur over the lifetime, the projected lifetime of the 
platform?
    Are you involved at all in any of that? If you are not, 
just say ``no'' and we will go to the next panel.
    Mr. Bolkcom. No, sir.
    Mr. Marshall. Let me try one more here.
    Mr. Sullivan. If I could, we look at acquisitions of the 
major weapons systems, something like the C-17 program, for 
example, and in doing so, we are focused mostly on what it 
takes to develop and then procure the aircraft.
    But there is also, especially in the past ten years or so, 
this idea of performance-based logistics, which has become very 
important.
    The department and the services have tried much harder to 
make the life-cycle costs part of the cost of acquiring--the 
total ownership costs more important at the time they are 
acquiring the aircraft.
    Mr. Marshall. Mr. Sullivan, I don't really think it is a 
just-in-the-last-10-years kind of phenomenon. I think, 
historically, while we might not have taken that into account, 
it was simply assumed that we, the government, would be in 
control of the long-term maintenance, sustainment and 
modernization process for everything we bought militarily.
    It was all ours. We got all the data rights. You didn't 
have to go back to the OEM for anything and you began 
immediately developing the management process that you needed 
in order to logistically take care of the platform over a long 
period of time.
    Mr. Sullivan. Yes.
    Mr. Marshall. We quit doing and probably the most glaring 
example of our failure in that regard, to the detriment of the 
Air Force, the detriment of DOD and the American taxpayer, is 
the C-17.
    We have got a real problem with the C-17 because we didn't 
think that through at that time and we don't know how, over the 
long haul, we are going to wind up, what sort of partnership we 
will develop that will enable us to, in a cost-effective way, 
deal with that platform.
    It was a real mistake and I am just hoping that we get to a 
point--I think the KC-X is our opportunity to set a model that 
makes sense in the long run and that is why I bring that up.
    Mr. Sullivan. If what you are discussing is organic 
capability versus contractor-based capability.
    Mr. Marshall. It is more basic than that. Yes, that is 
true, but it is more basic than that. We buy these things 
without taking into account what they are going to cost over 
the long haul and the kinds of understandings we need to have 
up front that will help us with cost over the long haul.
    We buy them cheaper to start out with, but in the long run, 
if you discount the present value of what it is going to cost 
us, we are spending more than we should.
    May I, Mr. Chairman?
    Mr. Sullivan. I would just like to say, Congressman, I 
think I am exactly with you there. And what I was trying to 
say, I guess, is there are ways to build in reduced total 
ownership costs or life-cycle costs when you acquire a weapons 
system.
    Mr. Marshall. Mr. Chairman, are we going to have a second 
round?
    Mr. Ortiz [presiding]. Well, we have another panel, but I 
think if we move fast enough, we could have a second round.
    Mr. Marshall. Thank you.
    Mr. Ortiz. My good friend from Michigan, Ms. Miller.
    Mrs. Miller of Michigan. Thank you, Mr. Chairman. I will be 
brief, as well, knowing we have another panel.
    And perhaps this question is better-suited for the second 
panel. But let me ask you, gentlemen, if you have any comment, 
since you are in the business, about how the Air Force and the 
Army is coordinating, as they look to the future, in regard to 
strategic airlift and specifically how are they looking to 
accommodate Future Combat Systems, for instance?
    That is really the Army's future there and being able to 
strategically airlift those kinds of vehicles. Do you see good 
coordination amongst the groups there? Could you comment on 
that?
    Mr. Sullivan. I could comment briefly on what the--the 
Joint Combat Aircraft, I think, would be the best example right 
now of where we see the Army and the Air Force having to come 
together now to collaborate a little bit more and see if they 
can get synergies out of the requirements process.
    And I think you would have to give them an incomplete grade 
at this point, because the process has really just gotten 
started. I think they just stood up a joint program office and 
some joint requirement-setting mechanisms to see how well they 
can work together.
    So it is kind of in its infancy in that regard.
    Mrs. Miller of Michigan. One follow-up question, as well, 
for Mr. Bolkcom from CRS.
    You mentioned you thought there was quite a bit of 
resistance about the possibility of leasing for refueling. 
Could you flesh that out just a little bit about how much 
resistance you think there is to that kind of a thing and if 
that really is an appropriate way for us to go?
    Mr. Bolkcom. Ma'am, I base my observations on ongoing 
relationship with the Air Force at many different levels, but 
their stated position is that there is a part B to the RFP, the 
request for proposal. And they will conduct a business case 
analysis (BCA) to look into this and see if it is worth doing 
and then submit an RFP for refueling services. That is their 
position. So it sounds like they are taking it under 
consideration.
    I think if you look at the proposed business case analysis, 
the study design seemed to contain a number of assumptions that 
might not have been favorable to fee for service compared to 
other options.
    So that raised some questions, in my mind. And just my 
continued interaction with Air Force staff has kind of raised a 
question mark. What has happened to it? The BCA was supposed to 
have been completed.
    I don't know who is doing it, its status, if one even 
exists. So I think it is up to the Air Force to document 
whether they are pursuing it or not.
    Mrs. Miller of Michigan. Thank you, Mr. Chairman.
    Mr. Ortiz. Thank you.
    Mr. Marshall.
    Mr. Marshall. Joint Cargo Aircraft, I am not as sanguine as 
you are, Mr. Sullivan, about the current status of the 
development of that. I almost feel as if I am emissary between 
the parties at this point, listening to both sides and our Air 
Force's worries about what Army is going to do and Army's 
worries about what Air Force is going to do.
    I am wondering what advice--and if you all can't do this, 
if this is beyond you, fine with me, don't try and answer--but 
what advice do you have to us? Is it Congress? Who in DOD, I 
mean, who pulls these folks together and tries to make sure 
that they are on the same page or at least if they can be 
gotten on the same page, get them on the same page?
    Mr. Sullivan. Well, one of the things that we look at when 
we look at the major acquisitions is the joint capability 
requirements process that the department has tried to put in 
place, in some sense, trying to go more toward functional 
capabilities in a way to set requirements as opposed to across 
the services or platforms, if you will.
    The department has worked very hard to try to institute 
those policies. There are cultural problems with that. There is 
stovepiping and things like that.
    But we have reported quite a bit on some of the failings of 
that process, some of the ways that the process and the funding 
process, for example, mechanically, don't link up. So it makes 
it more difficult for these services to come together.
    Mr. Marshall. What worries me is that Army is about to make 
a decision and that decision made by Army will be one that Air 
Force will conclude it can't live with at some point down the 
future.
    And it seems to me that there ought to be some mechanism 
for Congress or DOD or some other group to come in and stop the 
stovepiping and the cultural problem between the two services 
and if there is, in fact, some legitimate reason why there 
needs to be two different pipe forms, fine, so be it.
    It is going to cost us a lot of money to do that, it is not 
smart economically, but maybe we have to live with it.
    If, in fact, there is not a good reason, we ought to force 
them together.
    How do we force them together? I understand the problem. 
How do we force them together? Who does that?
    Mr. Sullivan. If you are asking me, mechanically, how would 
that operate in the department, I think there it the Under 
Secretary of Defense for Acquisitions probably would be the 
right position to get up above.
    Mr. Marshall. Would it be maybe this subcommittee that has 
a hearing and says, ``Don't do this to us. Can you come to us 
and explain why you can't do this jointly??
    Mr. Sullivan. This subcommittee certainly has a stake in 
them developing doable and efficient requirements that can take 
advantage of the synergies across the services. It certainly 
does, yes.
    Mr. Marshall. Thank you, Mr. Chairman.
    Mr. Ortiz. Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman.
    I understand that you gentleman tried to give us an 
overview perspective on the planning, particularly in some of 
these larger kinds of systems, and the line of questioning, I 
want to stay on where we have been, which is particularly 
airlift capacity.
    I guess my first question is, do you know if the Air Force 
or the Air Mobility Command, when they are trying to lay out 
their requirements, have they been preparing for new and future 
systems that have to be lifted to combat zones?
    Has that been specifically built into their numbers? Maybe 
that is for the second panel, I don't know if you know that.
    The second question I have for you is it seems, from what 
we have seen in the last number of years in Iraq, that there is 
going to be a trend to go to more armor on almost everything 
that we are hauling people around with.
    Maybe at the point of making that case would be the mine 
resistant ambush protected vehicles, MRAPS, that 4,000 of the 
Marines are going to be using and it is probably quite possible 
that the Army may be moving into more of those, too, which is 
1.5 times the weight of an up-armored Humvee.
    And then in my district, we are doing a lot of the 
engineering work on Future Combat Systems and the idea was to 
kind of keep it really light, but as you design it, it is 
coming out almost a little too big a bite for a C-130.
    So I guess my question is, is the trend that we see partly 
projected because of Iraq, is that going to be typical for 
military vehicles, that they are going to be heavier? And if 
that is the case, is the Air Force doing the planning needed to 
realize that we are going to have to be lifting heavier loads 
into these combat zones, wherever we end up fighting?
    Mr. Bolkcom. Sir, I will say I don't believe it is a truism 
that all our ground equipment is always going to be heavier. 
Certainly, we have a data point.
    We are fighting an insurgency in this context, in this 
environment, where the roadside bombs are a very effective 
tool, then, yes, in this case we need more armor. But we don't 
know that is always going to be the case.
    And I will just mention I think that I have witnessed 
pretty clear communication between Air Force and Army both 
directions. The Army is designing vehicles to fit on particular 
aircraft and the Air Force is considering what the Army is 
working on.
    So I see appropriate interaction.
    Mr. Solis. I think it depends not so much on the vehicle, 
per se, although that certainly is a consideration, but the 
operational scenarios that they are planning for for the future 
that would probably dictate more about what the aircraft and 
the lift requirements are going to be into the future.
    One of the problems, if we go back to Stryker, for example, 
now, this was intratheater. There was the requirement that the 
Chief of Staff of the Army laid out at one time to move that 
brigade anywhere in the world in 96 hours.
    Noble goal, but then trying to figure out how to do that 
became very problematic both strategically and intratheater, 
given some of the weight of the Stryker and just what they were 
trying to do and the number of assets, both C-5 and C-17, that 
you would have to employ to do that.
    The other thing, for example, with the Stryker, too, and 
you notice all the Strykers in Iraq have the slat armor, you 
are going to almost probably need to aircraft, like C-130's, to 
move that, because you can't necessarily put all that armor on 
that aircraft.
    So, again, it probably depends on the particular scenarios 
and how you are going to operate and what you are going to do 
into the future.
    Mr. Akin. So it sounds like ``all depends'' is your answer. 
But somehow or other, I have a hard time visualizing that we 
are going to send a whole lot of Humvees that don't have any 
armor on them anywhere where we get in trouble in the world.
    But you are saying, ``No, we may just be sending all these 
very light pieces of equipment over.''
    Mr. Solis. No, I am not saying that. I am just saying that 
your airlift requirement may be dictated by that very thing 
that you are saying, Congressman.
    If we are going to have, for example, as I said, with the 
Stryker, if you are going to be moving the Stryker and the 
armor and everything else, the people that go with it, you may 
need more aircraft, depending on the operational scenarios and 
the requirements that are laid out.
    Mr. Akin. That is what common sense seemed to dictate to 
me, but I know you can sometimes look at one war and just plan 
everything based on one scenario and things can change.
    But still I am having a hard time seeing where future 
combat systems seem to be going. I am having a hard time seeing 
that we are getting lighter somehow.
    It is true they are not battle tanks, but still, just 
because of the physical size, as well as the weight, that is 
what I am curious about.
    Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Mr. Saxton.
    Mr. Saxton. Thank you, Mr. Chairman.
    Mr. Solis, you brought up an interesting subject that I 
lived through. That was the----
    Mr. Solis. I know. You and I talked about this at one time.
    Mr. Saxton. Did we?
    Mr. Solis. Yes, if it is the same question I think you are 
going to ask.
    Mr. Saxton. Let me go to the next chapter then. With regard 
to Future Combat System and deployment, I believe the concept, 
once again, is to deploy a brigade quickly with airlift.
    My understanding, however, is that in carrying out the 
mobility requirement study, as well as the MCS, that the Army 
has not come up on the net yet to put the requirement forward 
for the Air Force to meet that deployment and that, therefore, 
conclusions that were drawn about how much airlift we need in 
terms of C-5 or C-17, whichever, were made in the absence of 
that requirement.
    Is that true, and do you see that as a problem?
    Mr. Solis. Congressman, I don't know. I can't answer 
specifically.
    What I would note, again, is that, for example, the study 
on intratheater lift is still ongoing. I don't know what the 
results of that may be, but, obviously, as I mentioned with the 
Stryker, that was a big issue.
    How are you going to move those vehicles within theater? 
Are you going to do that by, in the case of C-130, going back 
to what I know, the Stryker, or are you going to start moving 
to buy other aircraft, such as C-17?
    I can't answer specifically, but if you would like, we 
could probably take it for the record.
    Mr. Saxton. Do you know if the Stryker would fit on a C-130 
with the slat armor on it?
    Mr. Solis. I don't believe so.
    Mr. Saxton. I don't believe so either.
    My great friend, Jim Marshall, and my other great friend, 
Mr. Gingrey, talked a little about the C-5 and its attributes, 
and I agree that it is a great platform.
    As I listened to Mr. Bolkcom and his analysis, he talked 
about the size and its capability of carrying twice as much as 
a C-17. I just wanted to point out--and I am sure this makes a 
difference. I just wanted to point out that there is a reason 
that the Air Force didn't build another great big airplane like 
the C-5 and that was that the number of times that we fly it 
fully loaded is really small. Very few times do we fly that 
airplane fully loaded.
    So when they went out to design the airplane that they 
thought they needed that could land on a short runway and take 
off on a short runway, carry a heavy load, they thought that 
the C-5 fit the bill better than the C-17. There is something 
to be said for having more tails that carry a partial load.
    So I think we have to be very careful of saying that the C-
5 is the ultimate airplane because it can carry almost twice as 
much as the C-17. Would you agree?
    Mr. Bolkcom. Sir, I think that is very fair. I think the 
DOD's transportation system is really elegant. If you look at 
the layers of CRAF, the C-5, the C-17, they are very 
complementary. So I think that is a very fair statement.
    Mr. Saxton. Okay, thanks.
    Now, let me just throw something else out. The C-5 
modernization program is a good program, and I here in this 
committee helped to put in place and promote it. And I think it 
makes sense in some respect.
    But I am not sure that it makes sense in modernizing, fully 
modernizing both the C-5A and the C-5B, and here is why. In 
order to modernize the C-5A, you start from a baseline of a 
mission capability rate of 49.3 percent today and that is going 
down. You start with a fleet availability rate of 35.5 percent 
for C-5As. That means, I think in layman's terms, that they 
have a lot of problems to fix.
    And so this committee, some years ago, actually initiated 
by the Senate, as Mr. Marshall pointed out, said that we should 
do a test run on one bird, one C-5A, and that is in the process 
of being done.
    So I guess my question is, what needs to be done to correct 
the problems that have these low mission capability rates?
    And, incidentally, the C-17 has a mission capability rate 
of 86.8 percent, not 49 percent. So my question is, what needs 
to be done to the C-5A to correct the problems that result in a 
49 percent mission capability rate and a 35 percent fleet 
capability rate and how much does it cost?
    And, finally, how does that relate to the tripwire in Nunn-
McCurdy?
    Mr. Bolkcom. The C-5M, which will be the version that is 
AMP'ed and RERP'ed, is estimated to be 85 percent mission 
capable. I think that is, by comparison to most aircraft, 
reasonable and effective.
    So I think the answer to your first question is AMP and 
RERP, if it works the way they would like it to work. That 
should make it as available as you are going to make it.
    In terms of the tripwire of Nunn-McCurdy, I guess, sir, I 
really don't know how to answer that. You have got a tripwire 
of, what is it, 15 percent over the initial baseline. I don't 
know where RERP is.
    Mr. Saxton. They haven't come up with a final cost 
estimate, but I understand it is likely to trip Nunn-McCurdy 
and that will set in motion a whole set of new requirements.
    Mr. Bolkcom. Yes, sir. And I will just say, in conclusion, 
that those laws and thresholds are there for a reason. That 
sort of cost growth is of concern.
    I will also note that the Air Force is very supportive of 
some programs that have 200, even 300 percent cost growth. 
Those might be different cases, but those are some data points 
for you in terms of----
    Mr. Saxton. When we get to this tripwire, we have the 
responsibility of making a decision, if we have the 
opportunity, if we don't let the C-17 line go down.
    We then have the opportunity to say based on the cost that 
resulted from the test of the C-5A rebuild, do we want to 
decide to buy new airplanes or AMP and RERP C-5s, and I think 
that is a decision point that we need to come to.
    Does that make sense?
    Mr. Bolkcom. Agreed, sir. That is a tradeoff one can make.
    Mr. Sullivan. I guess I would add I think the redone cost 
estimate for the C-5 RERP we are talking about here should be 
available probably in the June-July timeframe. So that is when 
we should know that, and the cost could be pretty high.
    Mr. Saxton. When you say the cost could be pretty high, can 
you elaborate on that?
    Mr. Sullivan. Some of the indications we have had, some of 
the problems they are having with touch labor on the program, 
for example, I think the thrust reverser problems they have 
had, designs like that, they are looking at that now and it 
looks like there is going to be a lot more engineering effort 
needed to redesign that.
    It could be fairly substantial, Nunn-McCurdy breach kind of 
numbers, I think.
    Mr. Saxton. Thank you, Mr. Chairman.
    Mr. Ortiz. Mr. Spratt.
    Mr. Spratt. The C-5A experienced significant problems 
fairly early in its life with wind damage, interior wind 
damage, which have been indicated when the plane was being 
constructed at Lockheed Georgia, because of dynamic testing 
before the lane was operational showed damages in the spars and 
struts inside the wing.
    Later, the wing had to be replaced at a cost of about $2 
billion, rebuilt for the C-5A.
    In assessing the viable life, future life, given the stress 
that the wings have to bear, has any study been made of the 
wing? General Mosley mentioned that there were certain bad 
apples that they wanted to get rid of.
    Is there a particular set of problems that this airplane 
has experienced that needs to be addressed? I mean, are they 
still having structural problems with the wings, the old C-5As, 
do you know?
    Mr. Bolkcom. Sir, I don't have a specific answer. I think 
right now the authoritative study on the C-5 is the Air Force's 
own fleet viability board.
    I don't recall seeing any mention of bad apples in that 
report, but I would be happy to look at it more closely and get 
back to you.
    Mr. Spratt. How many C-5As are operational today?
    Mr. Bolkcom. We have 60 in the inventory, sir. I don't know 
how----
    Mr. Spratt. Sixty?
    Mr. Bolkcom. Yes, sir.
    Mr. Spratt. There were 81 originally contracted to be 
built. One burned up on the runway at Lockheed Georgia. One 
crashed at Dover, and a couple of others were lost by other 
means. That means there are about 20 that have been retired.
    Mr. Bolkcom. Sounds about right, sir.
    Mr. Spratt. Do we have any idea as to why those 20 were 
retired as an indication of what is problematic about the 
airplane?
    Let me ask you this. Has anybody considered possibly 
keeping the good, still viable C-5s, but putting in a system 
where they would be utilized a lot less, so that you would have 
this airlift capacity when and if needed, but you wouldn't fly 
this airplane which is otherwise operationally much more 
expensive to fly than the C-17, particularly if it is not fully 
loaded?
    Mr. Bolkcom. I haven't heard of such an idea, sir. One 
challenge may be that you have air crews that need to fly these 
and they need to get certain hours in and training and 
experience.
    So any movement in the number of airplanes or how they are 
used tends to have a ripple effect through the force that you 
would have to wrestle with.
    But I want to just point out there are a number of 
tradeoffs we can make in our larger system, as I said. It is a 
very elegant system of CRAF and other capabilities.
    So, certainly, some reduction in C-5s is one of the 
tradeoffs you can make.
    Mr. Spratt. It has the unique capacity to carry outsized 
equipment. Is there anything that it can carry that the C-17 
can't carry in smaller loads?
    Mr. Bolkcom. Yes, sir. There is a list of things, an 
engineering bridge comes to mind. Maybe the most significant is 
a special operations force, a Sea Air and Land Forces (SEAL) 
boat that the C-17 cannot carry, and the others escape me.
    Mr. Spratt. Thank you very much.
    Mr. Ortiz. I want to ask the members here that we are going 
to have one 15-minute vote and then followed by three 5-minute 
votes. It is going to take us at least 25 to 30 minutes before 
we come back.
    If we have any questions for these witnesses, do you all 
have any questions? If not, we can dismiss them so that we can 
get ready for the second panel. Is that okay?
    And if you all have any questions, some of the members who 
are not here, we will give them time to submit some of the 
questions to you in writing.
    Thank you so much. You have made good statements, and you 
answered our questions. So thank you so much for joining us 
today.
    When we come back, we will be ready for the second panel.
    Thank you.
    [Recess.]
    Mr. Marshall [presiding]. Let me go ahead and recognize our 
second panel and get started.
    I am Jim Marshall. I am sitting in for Mr. Ortiz, who is 
not feeling very well at the moment, and it wouldn't surprise 
me if we have a much smaller group of members here, given other 
things that members are doing this time of day.
    For our second panel, we have Lieutenant General Howie 
Chandler, Air Force deputy chief of staff for operations plans 
and requirements; Lieutenant General Don Hoffman, Air Force 
military deputy for the assistant secretary of the Air Force 
for acquisition; Lieutenant General Mark Curran, Army deputy 
commander for the training and doctrine command; Major General 
Tom Kane, air mobility command of the Air Force director's 
strategic plans, requirements and programs; and, Major General 
Jeff Sorenson, Army deputy for systems management in the Office 
of the Secretary of the Army for acquisition, logistics and 
technology.
    Gentlemen, welcome.
    Lieutenant General Chandler, if you would please proceed 
with your opening remarks.

STATEMENT OF LT. GEN. C.H. ``HOWIE'' CHANDLER, DEPUTY CHIEF OF 
 STAFF FOR OPERATIONS, PLANS AND REQUIREMENTS, U.S. AIR FORCE; 
  LT. GEN. DONALD J. HOFFMAN, MILITARY DEPUTY, OFFICE OF THE 
ASSISTANT SECRETARY OF THE AIR FORCE FOR ACQUISITION, U.S. AIR 
  FORCE; LT. GEN. MARK CURRAN, DEPUTY COMMANDER, TRAINING AND 
    DOCTRINE COMMAND, U.S. ARMY; MAJ. GEN. (SELECT) JEFFREY 
SORENSON, DEPUTY FOR SYSTEMS MANAGEMENT, SECRETARY OF THE ARMY 
FOR ACQUISITION, LOGISTICS AND TECHNOLOGY, U.S. ARMY; MAJ. GEN. 
 THOMAS P. KANE, DIRECTOR OF STRATEGIC PLANS, REQUIREMENTS AND 
         PROGRAMS, AIR MOBILITY COMMAND, U.S. AIR FORCE

         STATEMENT OF LT. GEN. C.H. ``HOWIE'' CHANDLER

    General Chandler. Sir, thank you.
    Mr. Chairman, Congressman Saxton, distinguished members of 
the subcommittee, thank you for the opportunity to appear here 
today to talk about Air Force airlift and tanker programs.
    As you know, your Air Force is fully engaged around the 
world fighting the global war on terror. We also stand guard as 
our nation's strategic reserve, ready to respond rapidly to 
conflict or humanitarian needs around the globe.
    The combat and combat support missions your Air Force is 
flying today are the latest in a string of 16 continuous years 
of Air Force combat in the Central Command (CENTCOM) area of 
responsibility.
    Through last March or March 1, 2007, your Air Force has 
flown 82 percent of the coalition's over 282,000 sorties in 
Operation Iraqi Freedom (OIF) and 78 percent of the coalition's 
over 160,000 sorties in Operation Enduring Freedom (OEF).
    At home, we have flown almost 47,000 sorties in support of 
Operation Noble Eagle and we are also supporting the war on 
drugs, having flown over 3,000 counter-drug sorties since 1991.
    Despite this operation's tempo, fiscal year 2006 was the 
safest year ever in Air Force aviation. In 1947, the first year 
the Air Force was an independent service, we recorded 1,555 
major accidents, for a rate of 44.22 per every 100,000 flying 
hours. In the process, we destroyed 536 aircraft at a cost of 
584 lives.
    In 2006, your Air Force recorded 19 major accidents for a 
rate of .9 for every 100,000 flying areas, destroying eight 
aircraft, with one fatality.
    This record is indirectly attributable to the hardworking 
men and women at all levels across the Air Force who focus on 
performing our mission safely, even as we fly in combat.
    Air Force mobility aircraft are essential to the 
expeditionary nature America's armed forces. None of our 
current operations would be possible without our airlift and 
aerial refueling aircraft.
    An Air Mobility Command aircraft departs a runway somewhere 
in the world every 90 seconds, 24 hours a day, 365 days a year, 
and through March 1, 2007, these aircraft have flown 315,000 
mobility sorties, moving over 5 million passengers and 2.2 
million tons of cargo in support of the war effort alone.
    Air Force tankers provide global mobility and reach for Air 
Force aircraft, the joint team and coalition forces. Through 
the end of February 2007, our aerial refueling aircraft have 
flown more than 92,000 sorties, offloading over 5 billion 
pounds of jet fuel to more than 343,000 receiver aircraft in 
support of the global war on terror.
    While the average tanker is over 40 years old, KC-135s and 
KC-10's nonetheless fly 30 tanker missions on a typical day in 
Central Command and stand alert to provide additional endurance 
for our aircraft performing homeland defense.
    For the past 50 years, the Air Force's primary tanker 
platform has been the KC-135 and it has served with 
distinction.
    However, we are carrying greater risks operating this 
aircraft beyond expected service life. Some of the oldest 
models already operate well beyond the point of cost-effective 
repair.
    Tanker recapitalization is not a new idea. In 1999, a GAO 
report appreciated the declining operational utility of our 
aging tankers and underscored the need for immediate investment 
in recapitalization.
    Given the increased operational requirements of the global 
war on terror, procurement of a new tanker aircraft, a KCX, has 
become both an operational necessity and the most fiscally 
prudent option to maintain America's global presence and 
expeditionary capabilities.
    The KC-X is our number one procurement priority. KC-X 
tankers will provide increased aircraft availability, more 
adaptable technology, and greater overall capability than the 
current inventory of KC-135E tankers they will replace.
    Enhancements to every aspect of aircraft operation will 
provide the joint war-fighter with more flexible employment 
options.
    It is imperative that we begin a program of smart, steady 
reinvestment in a new tanker, coupled with measured timely 
retirements of the oldest, least capable tankers. 
Recapitalizing our tankers will ensure viability of this vital 
national capability.
    Sir, again, I thank you for the opportunity to be here 
today. We deeply appreciate your support and the support that 
you have provided for our Air Force as we pursue our chief's 
three priorities--fighting and winning the global war on terror 
as part of the joint team, developing and caring for our airmen 
and their families, and recapitalizing and modernizing our 
aging aircraft and space inventories.
    Sir, I look forward to your questions.
    [The joint prepared statement of General Chandler, General 
Hoffman and General Kane can be found in the Appendix on page 
102.]
    Mr. Marshall. Thank you, sir.
    General Hoffman.

            STATEMENT OF LT. GEN. DONALD J. HOFFMAN

    General Hoffman. Mr. Chairman, Congressman Saxton and 
members of the committee, it is my pleasure to be here today to 
discuss the military capability that truly makes the United 
States a global power, and that is mobility.
    Since last year's testimony cycle, the following things 
have happened in the mobility acquisition area. We have retired 
29 grounded KC-135E models. By the end of this year, an 
additional 14 E models will have been grounded due to 
expiration of the interim repair on engine pylons.
    We need the flexibility to manage this aging fleet, to 
include retirements and harvesting of key parts after 
retirement.
    The KC-X tanker is now in source selection with contract 
award expected later this year. The Air Force has gone through 
a rigorous review process for KC-X and we remain committed to a 
competitive environment for this important program.
    The Joint Cargo Aircraft is in source selection and we 
expect results in the next several months.
    The Air Force is in the final stages of the C-17 production 
line. To date, 162 C-17 aircraft have been delivered. The 
production line closure that was forecast for a year ago was 
delayed by one year, with an additional 10 aircraft added to 
the U.S. buy and nine additional foreign buys.
    However, Boeing has already started sub-vendor line 
closures, which require 34 months of lead time from production 
delivery.
    The C-130J contract was converted from a Federal 
acquisition regulation Part 12 commercial contract to a Part 15 
military contract. Thirty-eight aircraft remain on this multi-
year contract.
    The C-130 AMP program, the first test aircraft has flown 24 
sorties and a second aircraft will fly later this month.
    This program is in a Nunn-McCurdy breach and we are working 
with OSD to restructure and recertify this program.
    C-5 AMP has delivered 23 aircraft. C-5 RERP delivered the 
first two aircraft and the third will fly this month. The test 
aircraft have flown 66 flights and the performance is meeting 
our expectations.
    However, this program has experienced significant cost 
growth, and we are in the middle of a re-pricing process to 
determine affordability and the way ahead.
    In short, every major mobility program moved forward over 
the last year.
    I would ask for the committee's continued help on one area, 
and that is the area of specialty metals. In last year's 
Authorization Act, Congress provided some relief in the area of 
electronic components, where the source of minute amounts of 
specialty metals cannot be traced throughout the commercial 
production supply chain.
    This relief is certainly helpful, but I would ask that 
there be further consideration for relief in the area of 
commercial products.
    Tracing the source of metals in commercial products is very 
problematic for industry, particularly where DOD is a very 
small part of their market.
    The cost of creating a separate supply chain that is able 
to trace specialty metals down to the lowest tier, such as 
fasteners, is something industry has been unwilling to accept 
if it is to remain commercial competitive.
    While the Congress has authorized a waiver process, the 
justification and support of the waivers can be labor-
intensive.
    As an example, the waiver process last year for the 
Advanced Medium Range Air to Air Missile (AMRAAM), the 
government contractors spent over 2,200 man hours to review 
4,000 parts and produced the documentation to justify the 
waiver. This documentation was eight inches tall in printed 
form. All this work was to justify a waiver for $1,400 on an 
item that is valued at $566,000.
    I look forward to your questions and comments. Thank you.
    Mr. Marshall. Thank you, General Hoffman.
    General Curran.

               STATEMENT OF LT. GEN. MARK CURRAN

    General Curran. Mr. Chairman, Mr. Saxton and distinguished 
members of the subcommittee, I am pleased to be here today to 
talk about Army aviation. Both General Sorenson and I welcome 
this opportunity and appreciate the outstanding support you 
have provided to Army aviation and our soldiers engaged in the 
global war on terror.
    Just a little over 3 years ago, in February 2004, the 
acting secretary of the Army terminated the Comanche helicopter 
program to achieve the aviation transformation and 
modernization plan, the plans that would restructure, 
reorganize and equip Army aviation, to be prepared to execute 
the full spectrum of military operations.
    Critical to these plans is the Joint Cargo Aircraft. Last 
year we promised you that the Army and Air Force would sign a 
memorandum of agreement, establish a joint program office, and 
conduct a joint source selection board.
    We have done just that. In May of this year, the program 
will proceed through the defense acquisition board for a 
milestone C decision.
    We, the Army and the Air Force, are a unified team, with a 
common goal to provide the best support to the joint war-
fighter. We truly embody the premise, one team and one fight.
    We are a joint team working together to field the best 
equipment possible to meet the combatant commander's needs.
    Fiscal year 2008 will be a pivotal year for Army aviation. 
The resources provided to the Army to conduct operations, while 
transforming and modernizing the aviation force, will determine 
Army aviation's ability to continue to accomplish its mission 
and to be postured to meet future commitments.
    Your continued leadership and support in providing full, 
timely and sustained funding is critical to our success. We are 
facing the challenging tasks of winning the war on global 
terrorism while simultaneously having to transform and 
modernize our force.
    Sir, we are ready for any questions that you may have. 
Thank you.
    [The joint prepared statement of General Curran and General 
Sorenson can be found in the Appendix on page 110.]
    Mr. Marshall. Thank you, General Curran.
    General Sorenson.
    General Sorenson. Chairman, I have no statement at this 
time.
    Mr. Marshall. General Kane.

             STATEMENT OF MAJ. GEN. THOMAS P. KANE

    General Kane. Sir, if you would allow me. Mr. Chairman, Mr. 
Saxton, thank you for the opportunity on behalf of General 
McNabb, our commander, and the 161,000 active guard and reserve 
total force members of the Air Mobility Command.
    As the major command in the United States Air Force 
responsible for airlift and tankers and as a component of the 
U.S. Transportation Command, we appreciate the committee taking 
the time to look at this very important part of our capability.
    As you know, our nation drives the requirements of this 
command and our Air Force in support of the services and the 
nation. Recent examples of Katrina and Rita, the Pakistan 
earthquake scenario, Lebanon, and, of course, what we do every 
day in the global war on terror.
    Our command today is performing over 900 sorties in support 
of the nation. On all seven continents, the men and women of 
the Air Mobility Command appreciate the opportunity to tell our 
story today and to answer your questions.
    Thank you.
    Mr. Marshall. Thank you all for your statements.
    The record, of course, is open for you to put written 
statements into the record, if you wish to do so. Please feel 
free to follow up with any of the questions or responses with 
additional remarks that we can put in the record, as well.
    You gentlemen were present earlier when I questioned the 
preceding panel about the C-5A and this notion, and I guess 
this is directed to Air Force here, this notion that some of 
the C-5As and two Bs, apparently, have been identified as so 
structurally broken that it doesn't make sense, in Air Force's 
opinion, to RERP and AMP them and Air Force, at least the chief 
tells me he would like to retire them.
    Could you gentlemen tell us a little bit about that?
    General Chandler. Sir, at this point, the program of record 
is to continue with the AMP and the RERP modifications. There 
may be a time, as we do that, when we take airplanes apart that 
we may run into structural issues that would cause those kinds 
of things to happen.
    As an aviator, there are airplanes that fly better than 
others, quite honestly. Some of them are a little easier to 
maintain than others, for whatever reason.
    So you can have some that don't fly as well as others 
might. We are going to have to dig a little deeper, though, 
before we actually come up with a list of airplanes that we 
would necessarily like to retire.
    Mr. Marshall. General Chandler, if I could interrupt.
    So do you not have within Air Force a team that has been 
specifically looking at different planes, trying to figure out 
whether or not it makes sense?
    General Chandler. Sir, the fleet viability board does that 
and they looked at the C-5 and, as you heard earlier, they have 
said that there are 25 years of serviceable life left in the 
aircraft.
    Mr. Marshall. But beyond that, has there been an attempt, 
instead of just generally making the comment about the fleet, 
an attempt to look at individual planes and do an analysis of 
whether or not that individual plane is, as Chief Mosley would 
say, ``hard broke?''
    General Chandler. Sir, if I may, let me defer to General 
Kane from the M.C. staff to see if they have a list at their 
level. We do not keep that on----
    General Kane. Sir, I would answer the question this way. We 
have heard earlier that the reliability rates for the C-5A 
range in the 40 percent to 50 percent range.
    The C-5Bs, which are operated with a total force formula, 
Dover and Travis Air Force Base, and now at Westover, range 
about 55 percent in their mission capable rates.
    What General McNabb looks at, because the airplanes are in 
maintenance cycles, PDM, going through RERP or AMP 
modifications, that the availability of that fleet is much 
lower.
    The availability of the C-5As today is only 36 percent. So 
those A models that are in the fleet today, most of them in the 
ARC, in the Air Reserve component, are available to the war-
fighter about 36 percent of the time.
    The B models, on the other hand, are available about 47.5 
percent of the time, again, reflecting the AMP program that is 
going on that has taken airplanes out of the mix.
    Today in the theater, in GWOT, we have five C-5s flying in 
support. On the other hand, you have about 22 dedicated C-17s 
to the theater and there is about 40 that are operating in 
support of the combatant commander in CENTCOM.
    Mr. Marshall. That doesn't really answer my question and 
maybe I am just talking out of turn here a little bit.
    General Kane. Sir, we don't have a list that we keep.
    Mr. Marshall. So if you could just look into that.
    General Kane. Yes, sir.
    Mr. Marshall. Is there somebody out there that is 
evaluating individual C-5s? Is there a list of C-5As and C-5Bs, 
particular planes that have been identified as ones where a 
case can be made that these individual planes, not the fleet 
entirely, but these individual planes should not be RERP'ed and 
AMP'ed?
    I think we need to know that. We are going to make a big 
decision here shortly on how we are going to fund different 
things and we need to know whether or not you are on the verge 
of making a recommendation to us with regard to specific planes 
and retiring those planes.
    I am going to give a quick summary here and just correct me 
if I am wrong.
    The C-5Bs that have already been RERP'ed and AMP'ed, and I 
think there are two of them----
    General Hoffman. Negative, sir. We have 23 C-5s that have 
been AMP'ed. Only the three test aircraft have been RERP'ed and 
our production ramp-up rate for the RERPing runs over several 
FYDPs. It is a long-term process.
    Mr. Marshall. But I am talking about you have got three--I 
thought it was two, but you have got two airplanes here----
    General Hoffman. Two are flying right now. The third one 
will fly probably tomorrow.
    Mr. Marshall. All right, great.
    But what you have is you have got two at this point that 
have gone through the entire process.
    General Hoffman. Yes.
    Mr. Marshall. And at this point, they are performing as we 
anticipated.
    General Hoffman. Correct.
    Mr. Marshall. And as we anticipated, of course, costs now 
seem to be spiraling out of control, but as we anticipated, 
their level of availability was going to come close to matching 
the C-17's general level of availability.
    Is that what we are experiencing?
    General Hoffman. It would be 10 percent to 15 percent 
higher than the baselines that they are operating from right 
now. That is the expectation from an AMP'ed, RERP'ed aircraft.
    Mr. Marshall. Well, that is not directly responsive to what 
I asked. What I understood, based on testimony that we have 
received over the last couple of years, the expectation by Air 
Mobility Command was that the RERP'ed and AMP'ed As and Bs were 
going to wind up being about 5 percent off the average 
performance level of the C-17s.
    Am I mistaken?
    General Kane. Sir, it is a 10 percent increase in the RFP. 
We will give you that number and that is what it is.
    General Hoffman. But, Mr. Chairman, the comment that you 
have time to decide on how far we go into RERPing here, because 
of the rate at which we are entering this program, we have only 
done three and our production rate is fairly slow over the next 
couple years.
    One other statistic, though, that I think General Mosley is 
referring to when he talks about bad actors, and he kind of 
goes by the fleet, the B fleet and the A fleet, it is one thing 
to talk about mission capable rates, but a more telling 
statistic is how hard do we have to work to keep them in the 
air.
    And for every flying hour that they fly, over the last 16 
years, the A model C-5s require 61 percent more maintenance man 
hours per flight hour. So it is a significant burden on the 
backs of the airmen to keep that aircraft flying.
    Mr. Marshall. I am with you, but we have decided to do this 
RERP/AMP thing. We are about to have A, right? And I guess we 
will see what those same figures are with regard to the A that 
we are about to have come on.
    General Hoffman. Right.
    Mr. Marshall. I will have more questions later, but I want 
to move to the ranking member here, my good friend and great 
Member of Congress, Mr. Jim Saxton.
    Mr. Saxton. Thank you, Mr. Chairman.
    Let me just continue on the other side of the lift. Let me 
ask some questions.
    Let me start here. The requirement for lift has been 
elusive, it seems to me, and I would just like to ask you where 
we are on defining the requirement at this point given the 
major events that have happened in recent times and given the 
requirements that exist going forward.
    Where are we now on the requirement?
    General Chandler. Sir, I know the first panel discussed 
earlier a bit about the requirement and we talked about the 
mobility, the MCS, mobility capabilities study.
    We in the Air Force need to stay on the glide path we are 
on with RERP and AMP with the C-5 program. One hundread and 
eighty was the number for C-17s and we thank you for the plus-
up, because that certainly helps offset the wear and tear for 
the global war on terror and the loss of the C-5 we had at 
Dover.
    As well, if we stay where we are at with the C-130J, we can 
stay on glide path to meet the minimum requirement.
    Now, we understand that is the minimum requirement and we 
also understand that the world has changed. We are looking at 
potentially a larger Army and Marine Corps. We are looking at 
the Future Combat System and, as we talked about earlier, still 
defining how we are going to do that in terms of a concept of 
operations between the Army and the Air Force.
    That leaves us also in a situation where Air Mobility 
Command (AMC) has gone back to take a look at the appropriate 
fleet mix which will bring in the C-17 and the C-130 and where 
we need to go with that end of the airlift spectrum in terms of 
intra and intertheater lift.
    But to answer your question directly, those requirements 
are yet to be defined. We hope to have the AMC work done by the 
end of this year.
    Mr. Saxton. A reasonable person could conclude then, based 
on what you just said in your statement, particularly the 
closing part of your statement, that if we include the 
requirements caused by the war on terror, if we include the 
requirements resulting from a larger force, and if we include 
the requirement that comes from a new weapons system in the 
future, known as the FCS, we might want to order some more C-
17s at some point.
    General Chandler. Congressman, I think that is a reasonable 
statement.
    Mr. Saxton. Here is my problem and here is your problem and 
my problem.
    The line is going to close and so we could, at some point, 
be precluded from making a decision to buy more if we don't 
make the decision in a timely manner.
    And just let me say this for the record and I am not trying 
to be--it is not my nature to say things to be contrary, but 
the Secretary of the Air Force and the Chief of the Air Force, 
last year, when Jim Marshall and I and others were fighting for 
those 10 airplanes that you just said thanks for, the Air Force 
said we didn't need them and based on the requirement that the 
Air Force had defined.
    Now, I don't blame the Air Force for that and here is why. 
We here and the folks over at the White House and other parts 
of the administration define the needs of our country and send 
you a list of things to do and then we authorize and 
appropriate money to do it and we give you a cost level here 
and send you this much money. So I am contrary to all of us.
    The real problem here is, this is my view anyway, this is a 
chart, which I have a bigger one someplace, but I couldn't find 
it, it is a chart that shows the defense budget as a percentage 
of GDP.
    You have all seen it, I am sure. It says that during World 
War II we spent 34.5 percent of GDP on national security. 
During Korea, we spent almost 12 percent. During Vietnam, we 
spent almost 9 percent of GDP.
    During the big rig and buildup, we spent almost 6 percent 
of GDP, and today we are spending--in 2005, we were spending 
3.9 percent of GDP.
    So this is more of an endemic problem for all of us to 
solve than just the Air Force. But having said that, we are now 
at a crossroads where, last Friday, a very high official in the 
contractor office in C-17 called me at home and said if we 
don't have an answer on C-17 in 2 months, we are going to have 
to start taking the line down.
    And that is where we are today. And so I know you know 
this, because I have had this conversation with you before, 
like yesterday, but this is a conversation to be had on the 
record and somehow, in the next few months, we are either going 
to have to decide that we are going to be able to do without C-
17s or else we are going to have to tell the contractor that we 
are going to order some more.
    So anyway, that is that.
    Now, on the Army side, on the Air Force and Army side, the 
Future Cargo Aircraft, General Curran, you said that we, that 
you and the Air Force, the Army and the Air Force signed the 
memorandum of agreement and I have got a copy of that right 
here. It was signed on June 20, 2006. That is a good thing.
    I am wondering what decisions remain to be made by the Army 
and the Air Force subsequent to the signing of this agreement.
    General Curran. Yet to be completed based upon that 
memorandum of agreement?
    Mr. Saxton. Let me tell you one thing that concerns me 
here. In defining roles and missions, in the first paragraph, 
it says, ``It is understood that the Air Force is DOD's 
provider of fixed-wing intratheater airlift. However, that does 
not preclude the Army from operating weapons systems in a 
service organic airlift role.''
    I think that says the Army can do this and the Air Force is 
the provider of fixed-wing theater airlift and I am not sure 
exactly--I am not sure precisely what that means.
    I mean, you told me earlier in a private conversation that 
the Air Force is going to have 75 of these new aircraft to fly. 
Is that right?
    General Curran. Sir, we talked about the Army, at least its 
analysis of alternatives, is pursuing 75 and the Air Force is 
still determining exactly what they are going to pursue, but it 
could be as many as 70.
    Mr. Saxton. If the Air Force is provider, do they have 
access to the Army airplanes?
    General Curran. The Air Force, as the general support 
provider to the joint force commander, would clearly have 
whatever joint cargo aircraft they would have. The Army 
component commander would have whatever he had.
    When those aircraft that the Army is operating are not 
flying in time-sensitive, mission-critical sensitive missions 
for the Army component commander, they would be available to 
the Air Force and to the joint force commander for operational 
support aircraft.
    General Chandler. Congressman, if I could add one thing.
    That is not anything different really than we do today with 
the Sherpa that the Army is trying to recapitalize.
    Any excess airlift over and above what General Curran 
talked about in terms of mission-essential and time-critical 
come back to the joint force air component commander (JFAC) to 
be distributed to support the joint force commander's 
requirements.
    The Air Force aircraft, on the other hand, are part of the 
transportation command (TRANSCOM) transportation system that 
the CFAC or the JFAC would work with to meet, again, the joint 
force commander's lift requirement.
    So the statement on the memorandum of agreement (MOA), to 
me, is a restatement of what we do today in terms of fixed-wing 
aircraft.
    Mr. Saxton. Here is my concern. The Army, I believe, and 
correct me if I am wrong, is planning on replacing capabilities 
that are carried out by CH-47 and other current aircraft that 
is used by the Army for this mission.
    And I think we want to be sure that when it comes time for 
the Army commander on the ground to say that, ``I have got to 
fly these ten guys and their ammo and equipment from point A in 
theater to point B in theater,'' that the Air Force doesn't 
somehow have the aircraft that is necessary to do that mission 
in a timely fashion.
    General Chandler. Sir, I would tell you that any Combined 
Forces Air Component Commander (CFACC) worth his or her salt 
would have exactly the same concern. We deliver goods and can 
deliver goods that last tactical mile to the Army, as required, 
just as we deliver ordnance off F-16s. We have that capability.
    Now, I will be honest with you, there is always friction 
that surrounds efficiency and effectiveness, but, again, the 
CFACC understands the effectiveness part of that. So that in 
some cases, we will not be as efficient as we necessarily might 
be in order to meet the effectiveness needs of the Army.
    Mr. Saxton. I assume that the efficient type are the well 
planned routes that we run kind of on a regular basis.
    General Chandler. Well, I would describe it more as 
collecting and filling the aircraft, so you have got the 
maximum use out of the aircraft to distribute whatever it is 
you are trying to distribute at the time.
    Said another way, you may not fill all the pallet 
positions. You may simply go with people or pallets or 
backhaul, wounded or whatever is required.
    Mr. Saxton. And that is a different concept than the Army 
commander on the ground has when he has a need to get from 
point A to point B now.
    General Chandler. Well, sir, what I just described, I 
think, matches with what the Army commander would want in terms 
of effectiveness.
    General Kane. Sir, if I could give you one more comment. In 
the current scenario in CENTCOM, the joint force commander 
CENTCOM drives through his J-4 an analysis of the larger stuff 
that comes into theater and then works that with the service 
components.
    They do that through the J-4 and then a deployment 
distribution operations center, which TRANSCOM chops to the 
combatant commander. That gives them visibility from the depot, 
DLA, where they are building pure pallets, all the way into 
theater to the war-fighter.
    We acknowledge the fact that there is, and today I think 
the number is about seven to ten percent of time-sensitive, 
mission-critical mission that the Army component or the Marine 
component engaged in combat need real-time supply.
    We have worked with the theater in a way that makes our 
assets available, as General Chandler has described, to the 
CFACC and the MD. One of the initiatives is we are putting more 
Aircraft Liason Officers (ALOs) in with the Army and the Marine 
components. We are dedicating 25 more people next year for 
those units engaged in combat, so that they can better clarify 
those requirements.
    And then, last, I would say things like joint precision 
airdrop, a joint program between the Army and the Marines and 
the Air Force, we are trying to define new ways to deliver into 
areas like in Afghanistan, where the helicopters are getting 
shot at.
    Today we have mobility airplanes being shot at at a higher 
rate because we are trying to satisfy the needs of the war-
fighter engaged in combat.
    General Curran. If I could just add. We agree absolutely 
with all that. That is the process. That is what we are 
attempting to achieve.
    The land component commander has capabilities nested within 
his organization force. If he has a critical requirement, he 
will use up his assets first to meet that requirement.
    If he can't meet it with his own assets, he will then take 
it to the CFAC or the joint force commander to satisfy those 
requirements. That is the way we have worked it in the past. 
That is how we plan to work in the future.
    Mr. Saxton. Very good. One final question. Can you explain 
to us the difference in requirements that the Air Force may 
currently believe it needs and how they are different from the 
requirements that the Army may think it needs in the platform?
    General Curran. Well, to start with, and then Howie can 
pile on, as we have gone through the process of turning an Army 
program and an Air Force program into a single program, 
somewhat already clearly stated in the MOA, but in the process 
of building those requirements documents, we have partnered 
with each other and reviewed what those key performance 
parameters (KPPs) will be for the base aircraft.
    And from that, we have agreed that that is a good start, a 
good base from which we could then build our capabilities on.
    The Air Force will define what specific mission packages I 
believe that they will need for their particular use of a JCA 
and then be able to add those as we go to a block two of that 
platform.
    I think that is how we have kind of laid out.
    General Chandler. Sir, that is exactly right. There will be 
some differences. One thing that comes to mind is the ability 
to fly in national and international airspace and the right 
avionics and equipment to be able to do those kinds of things, 
night vision goggle equipped.
    Some of those things are still being worked out with regard 
to what is in the basic aircraft and then, of course, AMC will 
help us define over and above that.
    We can get you a list of those requirements for the record, 
if you would like us to do that.
    Mr. Saxton. I would be interested in seeing it.
    Thank you very much.
    Mr. Marshall. Let me recognize the gentlelady from Florida, 
Ms. Castor.
    Ms. Castor. Thank you, Mr. Chairman.
    Good evening, gentlemen.
    On the KCX, General Mosley was quoted recently that he 
believed awarding the tanker replacement contracts to more than 
one company would have some utility, because the Air Force 
would be able to purchase a mix of larger and smaller tankers 
to mirror this current fleet.
    Is that an accurate reflection of the position of the Air 
Force?
    General Hoffman. That is what the article said, but what I 
believe General Mosley said is that we will have a mixed fleet.
    In fact, we have a mixed fleet today. We have KC-130's, we 
have KC-135s, we have KC-10's. So we see a mixed fleet all the 
way out into the future that will be medium size and some large 
size tankers.
    So he is talking about a mixed fleet and, in fact, until 
the last R model goes away, we are going to have a mixed fleet 
for 40 years no matter what we do.
    But tour present competition right now is to pick a single 
tanker and this is just the first wave, this is what we call 
the first traunch. We know we need around 500 tankers. We are 
sizing this first traunch at about 179 and we did that because 
no matter what commercial aircraft we pick, they only make 
commercial aircraft for 10 to 15 years.
    If they run longer than that, it is a very successful run, 
but even then they have different models, different engines, 
different lengths of fuselages and so forth.
    So to pick a commercial aircraft that we think is going to 
be made for 40 years probably won't happen.
    Ms. Castor. But it is not your intention to bifurcate this 
contract award. You are going to stick with awarding it to a 
single----
    General Hoffman. No, because of the duality of separate----
    Ms. Castor [continuing]. The first wave that you said of 
179.
    General Hoffman. Right. We see all 179 as being the same 
type of aircraft. To go down a dual track would require 
doubling our expense in the development and having both vendors 
develop an aircraft, produce an aircraft, test an aircraft and 
then produce it, and you get the inefficiencies there with two 
sustainment lines, two training lines, et cetera, et cetera.
    So we see 179 single aircraft. Now, 10 or 15 years from 
now, if they are still making that aircraft, we love that 
aircraft, we may just continue. That is a separate decision 
that can be made later if that option still exists. But we see 
that option probably will close at some point.
    Technology will move along and other commercial aircraft 
will be available. So the second traunch may look the same or 
may look different.
    Ms. Castor. Thank you for clarifying that.
    One vendor right now is producing tankers for Italy and 
Japan. Another is maybe selling tankers to Saudi Arabia, 
Britain, Australia.
    Are any of those out of testing yet? Explain where they 
are. Are any operational yet?
    General Hoffman. They are not operational yet, but they are 
built and they are in various phases of the test phase. And you 
are right, both vendors have a strong tanker with cargo 
capability and some other capabilities that are out there 
flying for foreign customers.
    Now, unlike the first panel had said, here are the two 
answers to the KCX, we don't know what they are going to bid. 
They may pick the ones that they have already built for someone 
else. They may offer a different commercial aircraft.
    So we don't know what they are going to bid, or they may 
offer two bids from a single vendor.
    So you would think that those that are already out there 
and developed would be stronger contenders and would be more 
competitive for those companies to bid something that they have 
already built than to start from scratch.
    Ms. Castor. Does the Air Force actively monitor those 
aircraft for other countries that are testing those right now 
as they move into operations?
    General Hoffman. They are direct commercial sales. We don't 
have a government role. But we do pay very close attention to 
their progress.
    Ms. Castor. I am a new member and I am going back and 
trying to learn some history about the KC-X or KC-135 and I 
know that due to not having a full rate of the KC-135, the 
recapitalization program under way, the Air Force was 
legislatively restricted from retiring 114 KC-135E aircraft in 
fiscal year 2005 and 2006, but then Congress allowed retirement 
of 29 aircraft in fiscal year 2007.
    In reviewing the materials, it wasn't clear to me what your 
recommendation is for 2008 and then looking out into 2009 and 
2010.
    General Hoffman. We would like permission, as the other 
services have permission, to manage their fleets. We want to do 
what we call fleet management and make a timely decision when 
it is right to retire an aircraft, to not have boundaries put 
on that retirement, like even the permission we got last year 
for the 29s said they had to be recallable, which means you 
have to leave them in kind of inviolate status there.
    Then they sit in the desert and they are going to age out 
very useful parts on those aircraft. So the remaining fleets, 
even the R models, could benefit from some of those parts.
    So we would like permission in 2008 to have the ability to 
fleet manage our fleets. There are 85 remaining E models. We 
would like permission to retire and fleet manage those 
remaining 85 aircraft.
    General Kane. Ma'am, if I could add one thing to that. 
Today we have grounded airplanes that are combat ineffective 
sitting on the ramps that our Guardsmen and Reservists of the 
135 fleet or active duty in the C-130 fleet are taking care of 
at an expense to the country and, frankly, it is these people 
who are already stressed.
    It is disheartening to them and lowers their morale when 
they have to take care of an airplane they know will never fly.
    So we do applaud the Congress for giving us the permission 
to retire 15 C-130Es and 29 KC-135Es, but we need to go the 
distance in managing the fleet, because it come on the backs of 
our people.
    Ms. Castor. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Marshall. Thank you, Ms. Castor.
    Now, to the gentleman from Missouri, Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman.
    Let me just ask a hypothetical. You have got some C-5A 
models--this is for the Air Force--and you start taking a look 
at fixing them up because they are costing you a lot to 
maintain and you think, ``Well, we are going to put some money 
into these things,'' and each one you take apart, you are 
looking at a couple of them, each one you take apart, they are 
more just stress cracks, I mean, they are completely--you are 
going to have to replace the whole airplane.
    Now, do you have the flexibility that if you wanted to, 
that you could retire those planes?
    General Hoffman. Not at the present time. We are restricted 
from retiring any C-5As until the first C-5A that is going 
through the RERP process, which should fly we think tomorrow or 
Friday, until that goes through operational evaluation, which 
will take until the 2009-2010 timeframe before we have the test 
results on that, that is a present legislative restriction.
    Mr. Akin. So currently we are going to close down a 
potential source of a replacement airplane and burn that bridge 
behind us before we really have any data.
    So in a way, it is almost like Congress has been 
micromanaging your job to manage your own air fleet, haven't 
we?
    General Hoffman. I think the chief and secretary they want 
authority, as other chiefs of services, to manage the fleet and 
they are restricted in not C-5s, but it is 130's, it is F-117s, 
it is B-52s. There are multiple aircraft out there that we have 
specific language that binds our hands.
    Mr. Akin. But we put these restrictions on so that you 
really can't manage the fleet.
    General Hoffman. That is right. Your comment is right 
there. I wouldn't describe it so much as burning the bridge. We 
can talk about storage of tooling and line closure on the C-17 
there and there are expensive ways and less expensive ways of 
doing that, but there is definitely a line break and a gap and 
a timeframe requirement and significant costs to retool and 
restart that line.
    But the bridge is not totally burned. We will keep the 
blueprints for the bridge, if we have got to rebuild it.
    Mr. Akin. But you have got all kinds of subcontractors and 
sub-subcontractors that are going to have to be rehired and re-
contracted. So there is going to be a tremendous cost of trying 
to get that thing back up and going again, right?
    General Hoffman. Right.
    Mr. Akin. And I think what I heard you say, also, so in 
other words, if we could put some language in to release you in 
terms of the C-5, particularly A models, is that where you 
would start?
    General Hoffman. Yes, sir.
    Mr. Akin. And give you the flexibility that if you need to 
retire those things, you can do it. If you want to rebuild 
them, you could still rebuild them, but you would have that 
flexibility to take a look and, at the same time, you would 
have the flexibility, if you wanted to retire a few of them, 
because you have got a pretty good number of them, right?
    General Hoffman. Sir, we have a 111 total C-5s and about 
half of them are C-5As.
    Mr. Akin. So you have got 50 at least. So if you wanted to, 
you could retire a certain number of them and get a replacement 
airplane or something like that now and then the ones that you 
have done this rebuilding on, you can evaluate that as quickly 
as you can.
    General Hoffman. Yes, sir. We will not make the decision to 
actually RERP or even if we make the decision today, we won't 
actually be getting around to doing that modification for many 
years, because they will follow the B models in their 
modification process.
    Mr. Akin. So that seems to make sense for us to be working 
along those lines.
    Now, I think what I heard you say was that the Air Force or 
Air Mobility Command has not really built in the requirement 
for heavier lift that might be required by a lot of these new 
additions of armor to things that weren't as heavy before, that 
that is something that is going to be sort of built into the 
equation next year, but that isn't in this year. Is that right?
    General Chandler. Yes, sir. The existing mobility 
capabilities studies do not address some of the things that we 
talked about in terms of the potential for a larger Army, 
larger Marine Corps, those kinds of things.
    Mr. Akin. Larger in terms of more numbers or heavier 
equipment?
    General Chandler. People and the definition, as you 
suggest, the Future Combat System and what that airlift 
requirement will actually be.
    AMC today is taking a look at how that all fits together 
with our smaller aircraft fleet, the fleet that flies 
intratheater and intertheater, to see how that all fits 
together.
    Mr. Akin. Right. So that has still got to be built into the 
equation.
    General Chandler. Yes, sir.
    Mr. Akin. I think you have pretty much answered the 
question.
    I guess I have one question for the Army and this is more 
because I am not that familiar.
    The Joint Cargo Aircraft, how is that different than a C-
130 and does it do anything a C-130 wouldn't do? Is there any 
reason to build it or what is the logic on that?
    General Curran. Sir, the Joint Cargo Aircraft is a smaller 
aircraft than the C-130, but it is compatible with the C-130 in 
that it will handle the same palleting system that is in the C-
130 for ease of cross-load of cargo and equipment.
    It has an additional capability of being able to land with 
a smaller load, but land on a shorter runway than you would 
find with a C-130, given both the Air Force and the Army 
greater flexibility with smaller loads and into more austere 
locations.
    So those are some of the significant differences, I guess, 
between the C-130 and the JCA.
    Mr. Akin. So what is the load relative to C-130, two-thirds 
or something of the load or half the load?
    General Curran. It is about half, sir.
    Mr. Akin. Half. So it is significantly smaller, 
significantly smaller.
    General Curran. Yes, sir.
    Mr. Akin. And do we have trouble landing C-130's in short 
landing strips? Because it seems like, to me, we manage to drop 
them down pretty fast over in Iraq and didn't seem like it took 
a whole of pavement to get them up or down on the C-130's.
    General Curran. C-130's are operating on, what would you 
say, 3,000 to 5,000 foot runways, based upon what loads they 
are carrying today. We are looking at a platform that could 
operate on 2,000 to 3,000 feet, based upon what its load is, to 
give you a relative comparison.
    Mr. Akin. And you think there is a need for that short of 
landing strips in some of the possible scenarios and places we 
might get involved.
    General Curran. Yes, sir. There are F series analysis and 
analysis that we have done have indicated that we do have a gap 
there.
    Mr. Akin. And just one make sure to make sure I got my 
numbers right.
    I think what I was hearing you say, with the rebuild, this 
is back to the Air Force again, I am sorry, with the rebuild of 
the C-5A models, I assume that includes new engines.
    I don't know the AMP and RERP and those things.
    General Chandler. Sir, the AMP program is an avionics 
enhancement program. It is a precursor and a requirement before 
the RERP, which is the acronym for the re-engining program.
    Mr. Akin. So you put those two together, you have got 
currently a 35 percent reliability rate and you think that you 
may jump it as much as 50 to 51 percent.
    General Chandler. Yes, sir.
    Mr. Akin. And what is the reliability rate of a C-17?
    General Chandler. That reliability rate will run in the mid 
80's, sir.
    Mr. Akin. So you are talking 51 versus mid 80's.
    General Chandler. Yes, sir.
    Mr. Akin. So if you are planning a mission and you have got 
these rebuilt A models, unless you are a gambling man, you are 
going to send two sets of gear for every one that you want to 
land and do the job.
    General Chandler. Yes, sir. There is no doubt that the 
aircraft is going to be less reliable based on a number of 
issues.
    Mr. Akin. This is one that you rebuild.
    General Chandler. Yes, sir.
    Mr. Akin. Well, that doesn't sound like a very good way to 
go.
    General Chandler. Let me ask if there is some distinction?
    Tom, if you want to----
    General Kane. Sir, the one thing I might point out is the 
way we operate the C-5 today, and it was pointed out in the 
earlier committee, that there are about nine pieces of 
equipment this nation depends on on the C-5 to carry and we 
will provide that for the record.
    [The information referred to can be found in the Appendix 
beginning on page 162.]
    General Kane.But, in fact, we have been challenged to 
change the concept of operations for the C-5 to do major hubs 
where we have the logistics base to support that airplane.
    Today, in support of GWOT, we have airplanes going into 
like Turkey, drooping off very large loads, particularly armor, 
that are moved forward on C-17s. That concept of operations 
(CONOPS) works very well and the C-5 performs very admirably in 
a system that I would call managed.
    So that is the challenge is to use that. Remember that the 
mobility capabilities study number, the base number was 292. We 
have always questioned why do you pick the bottom of the range, 
because when the C-5 crashed at Dover last April, it drove us 
to 291 and gave the Congress some impetus to try to replace at 
least one of those airplanes or the 10 that we got.
    I would suggest that the C-5, in those kind of roles, in a 
two major contingency operation scenario, is what drove that 
number in the requirement and left the risk at moderate.
    So those fleets of 111 remaining C-5s is important to a 
global power that has to look two ways and overlap two 
scenarios. That is where that number came from.
    Mr. Akin. You went a little faster than I could go with 
that explanation, but I think what I am hearing you say is 
there are needs for some C-5s, just because of the massive lift 
that it can do.
    General Kane. Yes, sir.
    Mr. Akin. But that you have got to be in an environment 
where you can really manage that and it has a low reliability 
rate.
    General Kane. There are seven Russian sailors alive today 
because our C-5 delivered the undersea submersible at Kamchatka 
Peninsula last year. And even though the British beat us there, 
we had the support equipment to download and save those 
sailors.
    Mr. Akin. So the point isn't to retire them all, but 
certainly to have the flexibility to manage your fleet. That 
just is common sense and sooner is a lot better than later 
right now in terms of cost of if we have to start to try to 
restarting a line or something.
    Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Mr. Marshall. I thank the gentleman.
    I want to pick up, if I could, where Mr. Akin just left 
off, and it is back to the C-5.
    I made reference to what I understand to be an analysis 
done by Air Force or some team of different specific C-5 planes 
and we are going to make a difficult decision here and if, in 
fact, Air Force is on the verge of being able to say, ``We 
think these specific planes should be retired for these 
specific reasons,'' clearly, if they are going to be retired, 
that is going to drop those numbers down below the mobility 
capabilities study's bottom number.
    And most of us think the mobility capabilities study is 
flawed to start out with, that the range should be a good bit 
higher, for reasons that are evident just reading the study.
    So that would be pretty persuasive to us on buying more C-
17s, but we need to know it now. It makes no sense at all to 
close down the C-17 line if, in fact, we are going to add more 
C-17s later, because we are getting rid of some of the C-5As. 
And I understand it is two C-5Bs and one of the C-5As.
    I would like to clarify something. When you say 51 percent 
availability, that is a term that most of us I don't think 
understand particularly well. In part, that is because of the 
way the platform is managed with Guard and Reserve.
    It is not that the platform is--if you manage the C-17 
fleet the same way you have been managing the C-5A fleet, its 
availability would drop dramatically, as well.
    So if we are comparing apples to apples, the idea behind 
the RERP/AMP program, as we understood it, was that C-5A would 
get pretty close to the reliability rate of the C-17. So that 
we could figure when a C-5A took off, or a C-5B or whatever it 
is, this RERP/AMP'ed platform, when it took off and landed, it 
was going to be able to take off again and do the next leg and 
the next leg and the next leg and we weren't going to have to 
worry about that.
    It is not going to get stuck in Argentina and we are going 
to have the embarrassment of Argentina telling us they won't 
take any C-5s, that sort of thing.
    Am I correct?
    General Chandler. Yes, sir, I agree with that. We make most 
of our money in the re-engining, quite honestly, although the 
avionics program is important. It is a precursor to give you 
the electronic backbone to be able to do those things.
    But the ability to take off with heavier loads from shorter 
runways, climb to higher altitudes faster, cruise at higher 
altitudes using less fuel, then, in turn, less tanker 
requirements if you do that, is important to us for all the 
reasons that General Kane described earlier and that we 
discussed earlier here.
    It is a cleaner, more efficient airplane overall and it 
would give you the dependability then that would allow you to 
leave it at the kind of rates that we leave it at when it is in 
the Air Reserve Component (ARC) and then bring it up to 
standard should we need that surge capability and that is the 
way the fleet is managed today.
    Mr. Marshall. I think it was IDA, I am not sure, I can't 
recall now who it was, did the study at the request of Senator 
Warner back in 2002 of our air mobility choices and that study 
clearly shows, dollars and cents-wise, that we should go 
through the RERP/AMP process even with the C-5As, tear one 
down, determine whether or not, in fact, it has got all these 
structural problems.
    Well, we have done that. We tore a C-5A down and concluded 
that it was in good shape, it was good to go for 25 years or 
so.
    So that study specifically said that this made financial 
sense, but that, of course, assumes certain costs associated 
with RERP and AMP. Now, these costs are spiraling out of 
control either because we can't manage it particularly well or 
because Lockheed is having problems managing things from its 
end.
    I said earlier, and I say again, I really think Air Force 
and Lockheed need to be talking to one another and Lockheed, if 
it is interesting in having this continued business RERPing and 
AMPing, needs to be talking to the Air Force about how to 
control these costs and maybe locking in a cost so that we know 
what this is going to be cost-effectiveness-wise as we move 
forward.
    I would just make that observation. I hope you are talking 
to Lockheed along those lines.
    KCX, General Hoffman, you, I am sure, saw that GAO has 
raised some concerns that Air Force hasn't done an adequate 
analysis validating the uplift, the airlift capability of the 
new tanker.
    Could you, just for the record--I am sure you are 
interested in replying to that. So for the record, could you 
comment on----
    General Hoffman. Yes, sir. This is a requirements issue, so 
I will turn it over to my comrade here, General Chandler.
    Mr. Marshall. General Hoffman is not interested in 
responding to that.
    General Chandler. Sir, I am interested in requirements, but 
if I could ask you to rephrase the question. I was writing as 
you were talking, I apologize.
    Mr. Marshall. I am sorry, I asked it to the wrong person.
    I am sure you have heard the GAO has raised some concerns 
about whether or not the Air Force has gone through an 
appropriate analysis that validates the airlift capacity of the 
new tanker.
    And if you could, just for the record, respond to that.
    General Chandler. The mobility study that we talked about 
earlier actually recognizes the ability to carry cargo and 
people as a secondary mission in the tankers.
    The joint doctrine addresses the ability to do that. Common 
sense, from an operator's perspective, would tell me that if we 
had the capability to put people and cargo on an aircraft, 
particularly during a deployment phase, where airlift could be 
at a premium and tanker requirements would be minimum, then it 
would make sense to look at the ability to carry cargo on a 
tanker aircraft, particularly from an operational perspective.
    I would tell you, sir, that the tanker program that we are 
looking at today, the KCX, is probably the most studied program 
that I have seen in my 33 years in the Air Force.
    I am convinced we have got the requirements right. The 
JROC, the joint requirements process, is convinced that we have 
it right and that the 6 percent cost over the life-cycle of 
this tanker, to have a cargo-passenger capability is worth the 
money.
    We think we are on solid ground and we are in an effort 
here to progress with a transparent program to produce a 
tanker.
    I guess if I could add just one more thing. It is important 
for us to get started from the aspect of when we will actually 
be able to retire the last KC-135R. If we would look at that, 
we are going to have some airframes that are nearly 80 years 
old in order to keep tanker availability where we need to if we 
are going to continue to maintain the----
    Mr. Marshall. I regret, by the way, that Mr. Bartlett's not 
here. He would object to any suggestion that 80 years is too 
long to be around.
    General Chandler. But I guess that is what I would say in 
terms of the KCX. We think it has been thoroughly scrubbed. We 
think we are on solid ground with the requirements and General 
Hoffman and his folks are proceeding with an open and fair, 
transparent acquisition process.
    Mr. Marshall. General Kane.
    General Kane. Sir, if I could add just a couple things.
    Airlift has always been a part of the aerial refueling 
mission. To formalize that in this requirements document was 
important.
    In 1991, during the Gulf War, we learned that units who 
could self-deploy on the tanker, fighter units, F-18s, A-10 
units, saved a lot of lift that was more important to support 
the Army and the Marine Corps moving their heavy equipment.
    We have re-learned that lesson again today.
    In 1996, we were a little confused, because the GAO told us 
at that time that any future aerial refueling platform should 
consider the airlift responsibilities. In fact, if we look 
today, while it will cost some more to put that capability on 
the airplane, it will cost a lot more if we de-scope that 
airplane and not take advantage of the cargo.
    So I think that is very important. In addition, I would 
answer the studies part of the question, we use the mobility 
capabilities study aerial refueling scenarios, program analyses 
and evaluation (PA&E) allowed us to do that.
    We ran those scenarios with the airlift KPPs involved and 
we proved again that that was important and the analysis 
supported the use of airlift in that platform.
    Mr. Marshall. Would you gentlemen get together with whoever 
in GAO has----
    General Kane. Yes, sir.
    Mr. Marshall. --produced the report and narrow your 
difference of opinion, resolve the difference of opinion, if 
possible, at the very least, just narrow it, and then get back 
with staff on the committee with where is the difference of 
opinion here, so that we clearly understand what it is?
    General Kane. Yes, sir.
    Mr. Marshall. Let me stay for KCX. For some time now, I 
have not been a one-man show, but I have really been beating 
the drums here about using this as a model for how to do it 
right with the C-17 acquisition as a model for how to get it 
wrong, at least with regard to the long-term questions of 
maintenance, sustainment, modernization.
    It is the life-cycle issue, which is 75 percent of the cost 
of the craft and sometimes more than that. And I know there is 
this temptation to buy it cheap upfront. Car dealers will tell 
you in a heartbeat, and I used to represent a bunch of those 
guys, I will sell a car for no profit, anticipating that I will 
make my money at the tail end on repairing that car.
    We have got depot issues, core issues, all kinds of other 
things to be thought about and it just looks like we are 
stovepiped on this stuff and that it is inappropriate 
stovepiping and acquisition doesn't really pay attention to 
what the long-term sustainment folks do.
    And somehow we need to bring the two together and I know it 
is troublesome, because it means that maybe the cost of initial 
acquisition goes up, so you don't get as many as quickly, and 
nobody ever wants that, typically.
    But it is something that we need to do and I thought that 
the KC-X was a good opportunity here, because one of the 
bidders is France--well, France, in a sense--and, at the 
moment, we are not terribly fond of France. Maybe we will get 
over that.
    But we don't want to be beholding France for data rights, 
equipment, management of this thing, long-term management of 
sustainment, modernization, et cetera, in any way.
    So I expect that whoever is the team that includes Airbus 
is going to be making a proposal, should make a proposal which 
shows that we will never be subject to that, directly or 
indirectly, and then it seems that Boeing would have to do the 
same thing just to make it fair and we could use that as a 
model.
    Are you heading in that direction at all?
    General Hoffman. Sir, I think the acquisition community 
holds hands very closely with the sustainment community and we 
are striving to do that better and better with every 
acquisition.
    There have been some encouraging changes over the last year 
on CSAR-X, on JCA, and on KC-X. We specifically included in the 
RFP data rights issues that aren't in previous examples of 
acquisitions.
    In other words, we want them to price to us all the data 
rights that we will need to do our own organic sustainment, 
should we choose to go that route in the future.
    If we choose and source select and then we say, ``Oh, 
forgot about data rights, go back'' and we have already source 
selected, there is no competitive advantage there. That is 
going to be sky-high.
    So in the competitive environment, we are going to have all 
the vendors price the data rights and we will execute that 
option in later years, if, in fact, we choose to go organic. 
But that is a business case decision that evolves over time 
about how much is organic, how much is not.
    We might take in certain elements, leave engines out, bring 
in the airframe. There are all kinds of combinations of how we 
do long-term sustainment.
    Mr. Marshall. But we would be managing that and wouldn't be 
beholden----
    General Hoffman. Initially, especially on commercial 
aircraft, which all three of these are commercially-derived 
aircraft or other, they have a prior life like the H-47, but we 
didn't know which CSAR-X we were going to select at the time, 
because there were some commercial ones out there.
    Commercial aircraft tend to have more traceability for 
sustainment argument in the commercial side. KC-X is going to 
be FAA-certified aircraft, which means will sustain that in 
accordance with FAA standards and a growing part of our 
workforce in the depot is now FAA-certified to do that level of 
work.
    It also allows us to benefit by the wide network that is 
out there for engines and other parts, if it is a commercially-
derived tanker, to use other sources of vendors that are FAA-
certified to do repair.
    So we are not wedded to that original OEM necessarily.
    Mr. Marshall. One problem we have got with the C-17 right 
now is even if we had the data rights available to us, we don't 
have the infrastructure to manage the supply chain, et cetera.
    General Hoffman. Depot standup is always one of the 
elements. It is one of the elements that gets scraped off first 
when you are under budget pressure in a program, is the 
facilitation of a depot standup.
    It doesn't matter what the program is, whether it is F-22, 
F-16, KC-X and all that. We want to baseline our programs 
properly that have a cost line in there to say this is the cost 
of standing up organic depot.
    Mr. Marshall. Well, that sounds very encouraging. Where 
Joint Cargo Aircraft is concerned, again, we have had this 
question concerning how are we going to maintain it in the long 
run.
    When I first talked to Army about this, Army's business 
case was CLS and forget about it, that is it, that is what is 
going to happen.
    General Hoffman. We had that discussion when the Army had 
their RFP. In fact, we amended the RFP after dialogue with the 
Army to allow the data rights entry to be there.
    Mr. Marshall. I had a great conversation with the chief of 
staff. I was in Jerusalem and it was 2 in the morning. He was 
in his plane over Russia and we talked about this for an hour 
about a year ago.
    So I am glad that progress has been made.
    I am getting some feedback, though, that there have been 
some problems agreeing on what the requirements should be, that 
Air Force is pushing back on some of the things that Army wants 
and Army's pushing back on some of the things that Air Force 
wants, and that there may be a separation.
    You heard my question to the prior panel along those lines.
    I have heard a specific reference to the size of this 
thing. Will it carry the standard pallet that Air Force 
typically moves around? Army is focused on a pallet that will 
go into a Chinook. I have heard things like that.
    Now, of course, General Curran, when you were talking just 
a minute ago, you said, if I understood you correctly, that the 
pallet size for this was going to be one that is the C-130 size 
and if that is the case, then it seems to resolve the pallet 
size, but there may be other things.
    How are you all getting along as far as the requirements 
under this?
    General Chandler. Sir, at this point, with the MOA, signed 
by the vice chiefs, we work closely with the Army to do exactly 
what we have been asked to do.
    There are still two outstanding things that we are working 
in each service. Mark and his folks are working their mission-
essential, time-critical needs. We on the Air Force side are 
seeing how this will fit in with our C-130/C-17 fleet mix.
    All of those things have to come together in the May 
timeframe for a milestone C decision.
    I would tell you that is where we are today.
    Mr. Marshall. So that is a general description. What are 
some of the specific issues here where you see a possible 
difference of opinion that could cause Air Force to say, ``We 
are not on board,'' or Army to say, ``We are not on board?''
    General Chandler. At this point, sir, I would tell you I am 
not sure there are issues like that.
    Mr. Marshall. Do you think you are going to get there?
    General Chandler. I think we are going to get there at this 
point.
    General Curran. Sir, I don't know of any that come to mind.
    Mr. Marshall. I guess we are asking for bids with data 
rights. Is Army still telling Air Force Air Force has to pay 
for the data rights, Army is not interested?
    General Sorenson. Sir, let me address that. As was 
mentioned before, in the RFP, we have requested contract line 
items for the vendors to basically bid the data rights and, at 
some point in time, the Army and the Air Force will do the 
business case analysis, sometime, per statute, over the next 
five years to make a determination is it better to proceed with 
contracts for logistics support or do we take those data 
rights, excise that particular CLIN option, buy the data rights 
and do organic support.
    The business case analysis will be done after the award is 
made and the milestone C decision.
    Mr. Marshall. The Army recognizes that Air Force has a 
slightly different circumstance than the Army finds itself in. 
Air Force has depots capable of managing this thing and has 
core requirements that necessitate that those depots have 
workload.
    General Sorenson. That is why those contract line items are 
there to be priced in the RFP as they provide their response.
    Mr. Marshall. Well, that is very encouraging.
    Mr. Saxton.
    Mr. Saxton. The other day, when the Chief of Staff was here 
with the Secretary of the Air Force, they talked a little bit 
about the aircraft retirement issue and I was wondering if you 
could give us a list, just a verbal list here of the aircraft, 
the types of aircraft that are old and need to be retired and 
why they need to be retired.
    General Chandler. Sir, there are five different systems 
that are involved. The B-52 is one of those. The B-52 has been 
a great workhorse for us. We think we can do the job with fewer 
of those aircraft.
    We have a three-pronged approach really to the next 
generation long-range strike aircraft, said another way, a new 
bomber. One of those is to modernize the existing fleet.
    One of the ways for us to do that is to decrease the size 
of the B-52 and use the funds remaining to modernize and 
continue to upgrade the existing fleet and we think that is a 
viable way to do business.
    C-130E, you are familiar with some of the stresses that we 
have got on that aircraft in terms of the center wing box 
problem and that is primarily the reason for retirement and the 
fact that we don't want to AMP those airplanes either.
    The F-117A has been a great airplane for us. It is first 
generation stealth. It is a very expensive airplane to fly. We 
have replacements coming online in the F-22 and if you look at 
what we can do with the B-2 and the F-22 combined, we think it 
is acceptable to let that aircraft go to the bone yard.
    We hate to do it. It is a great airplane and it has served 
us well. I think we tend to forget that it was in the black 
world for a long time and we were flying it for quite a while 
before it was generally known that we had that aircraft.
    KC-135E, I think we have been through all the issues with 
regard to the engine mounts and why we would like to retire the 
last 85 of those aircraft.
    Then the U-2, again, has been a great aircraft for us. It 
is, again, getting to be old, difficult to maintain. Global 
Hawk gives us a lot more persistence when you take the person 
out of the cockpit. We can now get a lot more persistence than 
we can get with a U-2, for example.
    We think we can meet the combatant commander's needs. We 
realize that we need to meet those needs before we start to 
bring the U-2 offline. So we are going to have to make the 
Global Hawk program work as advertised.
    But those are the five systems, sir.
    Mr. Saxton. I may have missed it, but I thought you said 
earlier that there were a few C-5s.
    General Chandler. I am sorry. C-5 is also a part of that. I 
would tell you there is a knee in the curb somewhere, as we 
described earlier, as we talked, about how many C-5s we need to 
do the job. We will provide you the list of outsized cargo.
    We have got the Patriot battery in its full mode is one of 
those and, as the GAO described, there are some other systems 
that can only be hauled in that aircraft. But whether or not we 
need the full 111 in that program AMP'ed and RERP'ed, which is 
our program of record today, is going to be dependent on 
whether or not we can make AMP and RERP work for us the way we 
thought it was going to work.
    Mr. Saxton. And the chief and the secretary, also, one of 
them mentioned a figure, a cost figure to keep airplanes around 
that we are not using because they are not safe or that we 
don't need and I was astounded to find out from them that they 
thought that figure was about $1.7 billion a year.
    Can you tell us how we run up a bill like that?
    General Chandler. Sir, that bill basically involves about 
400 aircraft, I think the number is 407, to be exact.
    That bill totals up storage costs, as well as the costs to 
keep them in storage and the inspections required and, in the 
meantime, it also includes the cost to fly and maintain those 
aircraft that we would like to retire until such time as we 
could retire them.
    Mr. Saxton. And I understand that, not being an 
aeronautical guy myself, I understand that when an airplane 
sits like that, you have to do things to it to maintain it, 
even though it never flies.
    General Chandler. Yes, sir. Part of the language that we 
are dealing with right now involves inviolate storage, which 
means we have to be able to bring that aircraft out of storage 
in a certain amount of time and be able to fly it.
    So not only are you paying the storage costs and the 
required inspections in storage to make sure that it is at that 
status, there is a cost avoidance issue in terms of not being 
able to cannibalize parts from those aircraft to keep the 
remainder of the fleet flying that we are talking about, also
    Mr. Saxton. Thank you.
    Mr. Chairman, I have no further questions.
    Mr. Marshall. Just following up a little bit on that.
    It would be enormously helpful to us and I suspect to Air 
Force if this bend or knee or whatever you were talking about 
there, if you have an analysis that suggests that in the mix, 
meeting the mobility capabilities study's minimum at least, it 
would be better to have fewer C-5s for some reason and more C-
17s, I mean, that is the kind of thing we need to know now.
    We also need to know if, in fact, there are some C-5s out 
there, As, Bs, that for reasons we are unaware of and certainly 
aren't suggested by the teardown of the one C-5A, because that 
indicated to the fleet viability board that the C-5A fleet was 
fine, but for reasons that we are just not aware of at this 
point, that some of those really do need to be retired.
    General Chandler. Sir, we will work with General Kane and 
Air Mobility Command. We owe you a list of aircraft out there, 
if that lists exist, and we will also go back and look at the 
appropriate mix.
    We appreciate that question.
    Mr. Marshall. And we may need to real quickly think about 
how do we establish that, in fact, these things are going to be 
too expensive to fix. Obviously, Air Force came in and said, 
``Let's retire all the C-5As'' and Congress, for whatever 
reasons, part political, part not, I suspect, said, ``Let's get 
IDA to look at it'' and then IDA came back and said, ``No, the 
most cost-effective thing to do here is RERP/AMP. Keep the C-5A 
around.''
    So it is very different from what Air Force wanted to do 
and so we may be in a position where somebody needs to be 
talking to somebody like IDA to say, ``Hey, fellows, we are 
going to have to do this on a hurry up schedule here. We have 
got some planes that we really think ought not to be flying and 
we may need you to lend your voice to Congress on this 
subject.''
    I would encourage you to think along those lines.
    General Chandler. Sure, we will take that for the record.
    Mr. Marshall. I guess I would end by saying that we 
appreciate your service and your patience here today and the 
service of all those who managed to stay awake behind you 
through your testimony and then all of those who serve for us 
in the armed forces. God bless you all.
    The meeting is adjourned.
    [Whereupon, at 6:51 p.m., the subcommittee was adjourned.]


======================================================================




                            A P P E N D I X

                             March 7, 2007

=======================================================================


=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 7, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 37316.001
    
    [GRAPHIC] [TIFF OMITTED] 37316.002
    
    [GRAPHIC] [TIFF OMITTED] 37316.003
    
    [GRAPHIC] [TIFF OMITTED] 37316.004
    
    [GRAPHIC] [TIFF OMITTED] 37316.005
    
    [GRAPHIC] [TIFF OMITTED] 37316.006
    
    [GRAPHIC] [TIFF OMITTED] 37316.007
    
    [GRAPHIC] [TIFF OMITTED] 37316.008
    
    [GRAPHIC] [TIFF OMITTED] 37316.009
    
    [GRAPHIC] [TIFF OMITTED] 37316.010
    
    [GRAPHIC] [TIFF OMITTED] 37316.011
    
    [GRAPHIC] [TIFF OMITTED] 37316.012
    
    [GRAPHIC] [TIFF OMITTED] 37316.013
    
    [GRAPHIC] [TIFF OMITTED] 37316.014
    
    [GRAPHIC] [TIFF OMITTED] 37316.015
    
    [GRAPHIC] [TIFF OMITTED] 37316.016
    
    [GRAPHIC] [TIFF OMITTED] 37316.017
    
    [GRAPHIC] [TIFF OMITTED] 37316.018
    
    [GRAPHIC] [TIFF OMITTED] 37316.019
    
    [GRAPHIC] [TIFF OMITTED] 37316.020
    
    [GRAPHIC] [TIFF OMITTED] 37316.021
    
    [GRAPHIC] [TIFF OMITTED] 37316.022
    
    [GRAPHIC] [TIFF OMITTED] 37316.023
    
    [GRAPHIC] [TIFF OMITTED] 37316.024
    
    [GRAPHIC] [TIFF OMITTED] 37316.025
    
    [GRAPHIC] [TIFF OMITTED] 37316.026
    
    [GRAPHIC] [TIFF OMITTED] 37316.027
    
    [GRAPHIC] [TIFF OMITTED] 37316.028
    
    [GRAPHIC] [TIFF OMITTED] 37316.029
    
    [GRAPHIC] [TIFF OMITTED] 37316.030
    
    [GRAPHIC] [TIFF OMITTED] 37316.031
    
    [GRAPHIC] [TIFF OMITTED] 37316.032
    
    [GRAPHIC] [TIFF OMITTED] 37316.033
    
    [GRAPHIC] [TIFF OMITTED] 37316.034
    
    [GRAPHIC] [TIFF OMITTED] 37316.035
    
    [GRAPHIC] [TIFF OMITTED] 37316.036
    
    [GRAPHIC] [TIFF OMITTED] 37316.037
    
    [GRAPHIC] [TIFF OMITTED] 37316.038
    
    [GRAPHIC] [TIFF OMITTED] 37316.039
    
    [GRAPHIC] [TIFF OMITTED] 37316.040
    
    [GRAPHIC] [TIFF OMITTED] 37316.041
    
    [GRAPHIC] [TIFF OMITTED] 37316.042
    
    [GRAPHIC] [TIFF OMITTED] 37316.043
    
    [GRAPHIC] [TIFF OMITTED] 37316.044
    
    [GRAPHIC] [TIFF OMITTED] 37316.045
    
    [GRAPHIC] [TIFF OMITTED] 37316.046
    
    [GRAPHIC] [TIFF OMITTED] 37316.047
    
    [GRAPHIC] [TIFF OMITTED] 37316.048
    
    [GRAPHIC] [TIFF OMITTED] 37316.049
    
    [GRAPHIC] [TIFF OMITTED] 37316.050
    
    [GRAPHIC] [TIFF OMITTED] 37316.051
    
    [GRAPHIC] [TIFF OMITTED] 37316.052
    
    [GRAPHIC] [TIFF OMITTED] 37316.053
    
    [GRAPHIC] [TIFF OMITTED] 37316.054
    
    [GRAPHIC] [TIFF OMITTED] 37316.055
    
    [GRAPHIC] [TIFF OMITTED] 37316.056
    
    [GRAPHIC] [TIFF OMITTED] 37316.057
    
    [GRAPHIC] [TIFF OMITTED] 37316.058
    
    [GRAPHIC] [TIFF OMITTED] 37316.059
    
    [GRAPHIC] [TIFF OMITTED] 37316.060
    
    [GRAPHIC] [TIFF OMITTED] 37316.061
    
    [GRAPHIC] [TIFF OMITTED] 37316.062
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 7, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 37316.063
    
    [GRAPHIC] [TIFF OMITTED] 37316.064
    
    [GRAPHIC] [TIFF OMITTED] 37316.065
    
    [GRAPHIC] [TIFF OMITTED] 37316.066
    
    [GRAPHIC] [TIFF OMITTED] 37316.067
    
    [GRAPHIC] [TIFF OMITTED] 37316.068
    
    [GRAPHIC] [TIFF OMITTED] 37316.069
    
    [GRAPHIC] [TIFF OMITTED] 37316.070
    
    [GRAPHIC] [TIFF OMITTED] 37316.071
    
    [GRAPHIC] [TIFF OMITTED] 37316.072
    
    [GRAPHIC] [TIFF OMITTED] 37316.073
    
    [GRAPHIC] [TIFF OMITTED] 37316.074
    
    [GRAPHIC] [TIFF OMITTED] 37316.075
    
    [GRAPHIC] [TIFF OMITTED] 37316.076
    
    [GRAPHIC] [TIFF OMITTED] 37316.077
    
    [GRAPHIC] [TIFF OMITTED] 37316.078
    
    [GRAPHIC] [TIFF OMITTED] 37316.079
    
    [GRAPHIC] [TIFF OMITTED] 37316.080
    
    [GRAPHIC] [TIFF OMITTED] 37316.081
    
    [GRAPHIC] [TIFF OMITTED] 37316.082
    
    [GRAPHIC] [TIFF OMITTED] 37316.083
    
    [GRAPHIC] [TIFF OMITTED] 37316.084
    
    [GRAPHIC] [TIFF OMITTED] 37316.085
    
    [GRAPHIC] [TIFF OMITTED] 37316.086
    
    [GRAPHIC] [TIFF OMITTED] 37316.087
    
    [GRAPHIC] [TIFF OMITTED] 37316.088
    
    [GRAPHIC] [TIFF OMITTED] 37316.089
    
    [GRAPHIC] [TIFF OMITTED] 37316.090
    
    [GRAPHIC] [TIFF OMITTED] 37316.091
    
    [GRAPHIC] [TIFF OMITTED] 37316.092
    
    [GRAPHIC] [TIFF OMITTED] 37316.093
    
    [GRAPHIC] [TIFF OMITTED] 37316.094
    
    [GRAPHIC] [TIFF OMITTED] 37316.095
    
    [GRAPHIC] [TIFF OMITTED] 37316.096
    
    [GRAPHIC] [TIFF OMITTED] 37316.097
    
    [GRAPHIC] [TIFF OMITTED] 37316.098
    
    [GRAPHIC] [TIFF OMITTED] 37316.099
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             March 7, 2007

=======================================================================

      
                 QUESTIONS SUBMITTED BY MR. ABERCROMBIE

    Mr. Abercrombie. Does the Air Force see the Joint Cargo Aircraft as 
necessary in meeting its intratheater airlift requirements and 
obligations for Air Mobility Command? Why would additional procurement 
of C-130J aircraft not meet these requirements?
    General Chandler and General Kane. The JCA and C-130J have similar 
capabilities for use in the intra-theater airlift role. Both are 
capable of short takeoff and landing at fields as short as 2000 feet 
and in high altitude and hot conditions (95 degrees F at 6000 ft 
pressure altitude). Both aircraft are capable of moving the 
department's standard 463 L pallet and can airdrop container delivery 
system bundles. Additionally, both aircraft will be equipped with all 
the requisite communications, navigation, and defensive gear to operate 
as an integral part of our combat theater airlift system.
    Still, the C-130J offers capabilities that the JCA does not, and 
the JCA offers efficiencies not available in the C-130J. The C-130J is 
faster and offers greater cargo capacity, higher climb gradients, and 
more flexibility on similar sized runways than the JCA. The C-130J is 
compatible with all current Air Force Material Handling Equipment (MHE) 
and can accept a 463L pallet configured at a standard height of 96 
inches, both of which the JCA cannot. Finally, the C-130J can carry 
many vehicle types that the JCA cannot (Stryker, Fire Engine, Up-
armored HMMVVE etc). However, our experience in Iraq and Afghanistan 
shows frequent, and required, movement of less-than-C-130 sized loads. 
In these situations, the JCA offers more efficiency than the C-130J 
because its cost to operate per flight hour is less. Similarly, 
depending on which aircraft is selected for the JCA, it may burn fewer 
pounds of fuel per passenger or pallet mile than the C-130J.
    Mr. Abercrombie. There have been concerns raised about promoting 
fair and open competition during the tanker recapitalization program in 
regards to World Trade Organization subsidy allegations between the 
U.S. and European Union, Berry Amendment compliance for specialty 
metals, and International Traffic in Arms Regulations for construction 
and final assembly. How do you plan to mitigate these issues during the 
KC-X program and what factors go into source selection?
    General Hoffman. Our planned approach for all of the issues listed 
is focused on legal and regulatory compliance, rather than issue 
mitigation. Our specific actions taken on each issue are detailed in 
our Request for Proposal (RFP) and listed below. None of these concerns 
are considered as separate or specific evaluation factors in the RFP 
and all offerors must comply with all applicable laws and regulations.
    World Trade Organization (WTO): Wording in the special clauses 
section of the RFP (Section H034) disallows contractor pass-on of costs 
resulting from past, present, or future WTO rulings:

        ``H034 WORLD TRADE ORGANIZATION DISPUTE--COSTS UNALLOWABLE Any 
        penalties, taxes, tariffs, duties, or other similar-type costs 
        imposed by a Governmental entity as a sanction, enforcement or 
        implementation measure resulting from a decision in the Matters 
        of European Communities and Certain Member States Measures 
        Affecting Trade in Large Civil Aircraft, United States - 
        Measures Affecting Trade in Large Civil Aircraft before the 
        World Trade Organization shall not be included in the 
        negotiated price of this contract, nor shall such costs be an 
        allowable direct or indirect charge against this contract.''

    Berry Amendment: Offerors must comply with applicable specialty 
metals restrictions, although offerors may submit waiver requests in 
accordance with applicable law and regulations. Per the RFP, paragraph 
8.3.3, Berry Amendment Compliance:

        ``If an Offeror is unable to comply with the specialty metals 
        restrictions set forth in the clause, and intends to seek an 
        exception under 10 USC 2533b(b) (``Availability Exception''), 
        the Offeror shall submit a request for a Domestic Non-
        Availability Determination (DNAD) waiver no later than 30 days 
        after release of the RFP. Offerors requesting a DNAD shall 
        provide factual information to justify approval of the 
        determination as part of their DNAD request.''

    International Traffic in Arms Regulations (ITAR): Offerors must 
comply with established ITAR guidelines and regulations.
    Mr. Abercrombie. How do you plan to fairly evaluate the airlift and 
aerial refueling capabilities of the KC-X bidders' submissions and what 
metrics will you use?
    General Hoffman. Our acquisition planning has focused on ensuring 
the KC-X program proceeds in a fair, full and open competition and all 
efforts have been made to present program information in a fully 
transparent manner. We emphasized this environment of fairness in the 
source selection planning and in the evaluation. The following KC-X 
program Request for Proposal sections are included to highlight our 
evaluation process and list the metrics used in the source selection 
evaluation. The following is an excerpt from the KC-X request for 
proposal, Section M001 Source Selection and Section M002 - Evaluation 
Factors:

        ``The Government will select the best overall offer, based upon 
        an integrated assessment of Mission Capability, Proposal Risk, 
        Past Performance, Cost/Price and the Integrated Fleet Aerial 
        Refueling Assessment (IFARA). Contract(s) may be awarded to the 
        offeror who is deemed responsible in accordance with the FAR, 
        as supplemented, whose proposal conforms to the solicitation's 
        requirements (to include all stated terms, conditions, 
        representations, certifications, and all other information 
        required by Section L of this solicitation) and is judged, 
        based on the evaluation factors and subfactors, to represent 
        the best value to the Government. The Government seeks to award 
        to the offeror who gives the AF the greatest confidence that it 
        will best meet, or exceed, the requirements. This may result in 
        an award to a higher rated, higher priced offeror, where the 
        decision is consistent with the evaluation factors and the 
        Source Selection Authority (SSA) reasonably determines that the 
        technical superiority and/or overall business approach and/or 
        superior past performance, and/or the IFARA of the higher 
        priced offeror outweighs the cost difference. The SSA will base 
        the source selection decision on an integrated assessment of 
        proposals against all source selection criteria in the 
        solicitation (listed below). While the Government source 
        selection evaluation team and the SSA will strive for maximum 
        objectivity, the source selection process, by its nature, is 
        subjective and, therefore, professional judgment is implicit 
        throughout the entire process.

        2.1 Evaluation Factors and Subfactors
        The following factors and subfactors will be used to evaluate 
        each proposal. Award will be made to the offeror submitting the 
        most advantageous proposal to the Government based upon an 
        integrated assessment of the evaluation factors and subfactors 
        described below. The Mission Capability, Proposal Risk, and 
        Past Performance evaluation factors are of equal importance and 
        individually more important than either Cost/Price or IFARA 
        evaluation factors individually. The IFARA is equal in 
        importance to Cost/Price. Within the Mission Capability factor, 
        the five (5) subfactors are listed in descending order of 
        relative importance from 1 to 5. In accordance with FAR 
        15.304(e), the Mission Capability, Proposal Risk, Past 
        Performance, and IFARA evaluation factors, when combined, are 
        significantly more important than Cost/Price; however, Cost/
        Price will contribute substantially to the selection 
        decision.''

    List of Evaluation Factors and Subfactors:

        Factor 1: Mission Capability
            Subfactor 1: Key System Requirements
            Subfactor 2: System Integration and Software
            Subfactor 3: Product Support
            Subfactor 4: Program Management
            Subfactor 5: Technology Maturity and Demonstration
        Factor 2: Proposal Risk
        Factor 3: Past Performance
        Factor 4: Cost/Price
        Factor 5: Integrated Fleet Aerial Refueling Assessment

    Mr. Abercrombie. Does the Army view the Joint Cargo Aircraft as a 
core asset? Does the Air Force, Air Mobility Command and/or regional 
air component commander adequately meet intra-theater airlift 
requirements of the Army by moving required equipment and supplies the 
``last tactical mile''?
    General Sorenson. The Joint Cargo Aircraft (JCA) is a core asset to 
the Army for delivery of time-sensitive mission-critical supplies. As 
per Joint Publication 4-0 (Doctrine for Logistic Support of Joint 
Operations), it is the Service Component's responsibility to distribute 
supplies to their subordinate units after the component receives the 
supplies at the Service Component hand-off point, which in most cases 
is the Sustainment Brigade area. The Army's JCA complements the Air 
Force Common-user Airlift pool. Both are necessary to get things where 
they need to be (point of need) when they need to be there 
(timeliness).
    Given the amount of supplies that must be transported, the JFC must 
ensure this is done efficiently. Most bulk supplies (such as fuel, non-
perishable food, and water) are moved by surface transport (ships and 
trucks). Other supplies must be transported more rapidly (such as low 
density or high demand repair parts, ammunition, perishable goods, 
blood and medical supplies, etc). These are typically moved by air to 
the theater by strategic airlift, and further distributed within the 
theater by Air Mobility Command assets OPCON to the JFC. These common-
user airlift assets routinely deliver their cargo to Service Component 
hand-off nodes, typically Army Sustainment Brigades. These supplies, 
now under the ownership and control of the Ground Component, must be 
further distributed to the point of need - ``the last tactical mile.'' 
This portion of tactical distribution (i.e., ``the last tactical 
mile'') is the responsibility of the Ground Component Commander (Army). 
To effectively accomplish this tactical distribution of supplies to the 
point of effect, the Ground Component Commander uses a mix of ground, 
rotarywing and fixed wing transportation assets under his control. The 
Army JCA will be used to provide responsive transport of time-sensitive 
mission-critical assets to forward units - ``the tip of the spear.''
    Mr. Abercrombie. In September 2005, GAO completed a report titled 
Air Mobility Command Needs to Collect and Analyze Better Data to Assess 
Aircraft Utilization; what lessons were gained from that report and 
what actions have been taken in response to the GAO report?
    General Kane. Air Mobility Command's (AMC) Air Mobility Master Plan 
(AMMP) recognizes that ``Accurate tracking of cargo is critical to 
efficient deployment and sustainment operations.'' Improving data 
collection and subsequent analysis is an ongoing effort within AMC and 
TRANSCOM. Innovative technologies, such as Radio Frequency 
Identification Tags (RFID), have been incorporated into the Global 
Transportation Network (GTN) to significantly improve in-transit 
visibility. Requisitions may now be tracked in a manner similar to UPS 
or Federal Express. Further, the formation of the Joint Distribution 
Process Analysis Center (JDPAC) will consolidate the analytic power of 
the Army Surface Deployment and Distribution Command (SDDC) and the AMC 
Analysis Directorate (A9) into one center of excellence; improving the 
distribution process from an end-to-end perspective.
    Mr. Abercrombie. General Schwartz, Commander, United States 
Transportation Command, and General McNabb, Commander, Air Mobility 
Command, testified in March 2006, that no more than 200 C-17s would be 
the ideal C-17 force structure as long as it did not affect procurement 
of the KC-X tanker aircraft. Further, given the increased C-17 
utilization rate for intra-theater airlift operations, the condition of 
the C-130E/H fleets, the lack of defined airlift requirements for Army 
modularity and Future Combat Systems operations, and the personnel end 
strength increases of the Army and Marine Cops, what does Air Mobility 
Command now believe is the ideal number of C-17s to have in the Air 
Force inventory?
    General Kane. Air Mobility Command, through United States 
Transportation Command, is currently engaged with the joint community 
to help define the scope of the planned Army/Marine Corps end strength 
increase and its impacts on air mobility. Quantifiable insights in 
response to this question are anticipated in the early June 2007 
timeframe.
    Neither the most recent Mobility Capability Study (MCS) published 
in 2005 nor the follow-on excursions in MCS-06 included the force 
structure in question. OSD and the Joint Staff anticipate the next MCS 
round to begin in the Spring of 2008. This study should fully 
incorporate and examine the changes to Service force structure and 
impacts on mobility (air, land, sea, and prepositioning).
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MILLER
    Mr. Miller. What is the current critical need of the Joint Cargo 
aircraft and the status of the acquisition?
    General Hoffman and General Chandler. Based on experience in 
Afghanistan and Iraq, the JROC validated the JCA Capability Development 
Document (CDD) to address a capability gap for delivery of time-
sensitive/mission-critical cargo.
    The Milestone C decision to proceed to Low Rate Initial Production 
(LRIP) is planned for 30 May 07. Assuming approval to enter LRIP, the 
Joint Program Office will announce the winner of the JCA competition in 
the summer.
    Mr. Miller. Have there been major conflicts regarding the JCA 
between the Army and the Air Force?
    General Hoffman and General Chandler. Sir, to answer your question 
up front--absolutely not. The Army and the Air Force have been rapidly 
moving out on this joint program ever since receiving guidance in 
December 2005 to join the Army's Future Cargo Aircraft (FCA) and the 
Air Force's Light Cargo Aircraft (LCA) programs. The Army and Air Force 
Vice Chiefs of Staff signed a Joint Memorandum of Agreement (MOA) that 
outlines the way ahead addressing roles and missions, command and 
control, standardization and training, sustainment, resources and 
public affairs efforts. On the current timeline, we anticipate a 
milestone decision in late May with source selection announcement to 
follow about a week later. The Army and the Air Force are on track to 
jointly procure the same basic aircraft platform for the Joint Cargo 
Aircraft program.
    Mr. Miller. What is the current critical need of the Joint Cargo 
aircraft and the status of the acquisition?
    General Curran and General Sorenson. The JCA is one of the key 
elements of Army Aviation Transformation, specifically in regards to 
the Army National Guard and the Army Reserve. The JCA will replace 
aging and inadequate C-23 Sherpas, C-26s and some C-12 aircraft with a 
more capable, modernized, cargo aircraft. The JCA will also provide 
relief to the CH-47 fleet which is currently carrying a large portion 
of the logistics transportation burden. The JCA will reduce stress on 
the CH-47 fleet for logistical transport, while increasing the 
availability of CH-47s for tactical missions. The JCA will also reduce 
ground tactical convoys and risk to Soldiers.
    The JCA will meet the Army's critical need for a robust, multi-
functional fixed wing cargo aircraft able to operate on short, austere, 
unimproved landing areas. Service component commands are responsible 
for logistic support of their forces, including the distribution of 
supplies from the Service hand-off point to the point of need. The Army 
JCA will deliver critical cargo and personnel to the point of need--the 
last tactical mile. The Army's primary mission for the JCA is 
responsive, on-demand transportation of time-sensitive/mission-critical 
cargo and key personnel to forward deployed tactical units. The JCA 
will deliver cargo as far forward as feasible, either directly to the 
tactical maneuver units or the closest forward support base for further 
movement by Army rotary wing aircraft or ground transportation. On 
return missions, the JCA will backhaul personnel and repairable 
equipment for repair.
    The JCA is a joint Army/Air Force program with the Army as the lead 
agency. A joint program office was established on 1 October 2006. The 
Army and the Air Force have agreed that the Army and Air Force JCA will 
be the same basic platform. However, the Air Force may include selected 
mission equipment packages (MEP) on the JCA to address broader intra-
theater airlift requirements. The Army will initially procure 64 TOE 
aircraft plus 4 training and 7 operational readiness floats, for a 
total of 75 JCAs. These aircraft will be split 75/25% between the Army 
National Guard and the Army Reserve. The Air Force will initially 
procure 40 JCAs. Further Air Force JCA procurement plans are pending 
completion of an intra-theater fleet-mix analysis in December 2007.
    On 17 March 06 the Defense Acquisition Executive approved the 
Acquisition Strategy for a nondevelopmental aircraft for the JCA, and 
the Request for Proposals was subsequently released. The JCA is 
currently nearing the completion of the source selection process. 
Milestone C is scheduled for 30 May 2007. The Army plans to start 
fielding the JCA in late 2008 with the first unit to be equipped in 
2010. The Air Force will start fielding the JCA in 2012.
    Mr. Miller. Have there been major conflicts regarding the JCA 
between the Army and the Air Force?
    General Curran and General Sorenson. Today the Army and the Air 
Force are working closely together towards the fruition of the Joint 
Cargo Aircraft (JCA) program. To the Army, the JCA shores-up its direct 
support capability to deliver time-sensitive/mission-critical equipment 
to Brigade Combat Teams and subordinate units on the current and future 
asymmetrical battlefield. To the Air Force, it supplements it current 
intra-theater bulk hauler, the C-130, with added efficiency and 
effectiveness. The benefits to both Services are clear and consequently 
we are working together towards this common end.
    Only a year ago both Services were still grappling with the 
challenges inherent in merging two programs into one as directed by the 
Director, Acquisition Executive for Office of the Secretary of Defense. 
The Army had a two year jump start with its Future Cargo Aircraft 
program and had obtained Joint Staff approval and OSD approval. The Air 
Force had just determined a possible need for a light, bulk hauler to 
compliment its C-130 fleet, but did not have the opportunity to begin 
the analysis to determine the specifics defining the requirement. 
Obviously this program mismatch in regards to concept and requirement 
development resulted in initial clashes between the Army and Air Force 
in regards to platform, utilization and the defining lines of 
debarkation between Army and Air Force pertaining to operating on the 
battlefield. Over the past few months, the Army and Air Force have 
resolved these issues as witnessed in obtaining Joint Staff and OSD 
approval for the program in regards to business case analysis, Joint 
Concept of Operations (CONOPS) and programmatics. The program's 
Milestone C decision is schedule for May 2007, we anticipate contract 
award following that decision.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. TAUSCHER
    Ms. Tauscher. The USAF Program of Record supports modernization of 
the entire C-5 Fleet (A/B/Cs). The 2006 QDR and 2005 Mobility 
Capabilities Study validated that 292 strategic airlifters meets 
national requirements and included modernized C-5s as part of that 
solution set. Your FY08 PB submission fully supports both AMP and RERP 
programs for the entire C-5 fleet. These documents and reports indicate 
complete DoD support for the C-5 modernization program, yet recent AF 
comments in testimony and to the media raise questions regarding your 
commitment to this important program, and quite honestly, are sending 
mixed signals. For the record, does the AF support the results of their 
own studies to modernize the entire C-5 fleet? If not, what new studies 
have the AF done that would now suggest that fleet modernization of the 
C-5s is not the right solution?
    General Chandler. A November 2000 Analysis of Alternatives on 
Outsize and Oversize Cargo Airlift Capability came to the conclusion 
that the C-5 RERP program offered the best value approach at that time, 
and the Air Force crafted its program based on that conclusion. No new 
formal studies, along the lines of the 2005 Mobility Capabilities 
Study, have addressed this issue. However, the Air Force continually 
examines force structure options based on the most up-to-date 
information available and is currently refining analyses to inform 
decisions on the most cost-effective mixture of C-5s and C-17s to meet 
strategic airlift requirements. Also, the Department is examining 
options and inputs from ongoing analyses associated with defense 
planning that may impact strategic airlift requirements.
    Ms. Tauscher. AF and Industry studies have previously affirmed the 
value of C-5 modernization as the most cost effective solution for the 
entire fleet. In a fiscally constrained environment, it simply makes 
sense to modernize all the C-5s as part of your baseline capability and 
if there is a need for more airlift, you build additional capability 
with C-17s? The AF has testified that it would prefer to rid itself of 
C-5As and buy more C-17s, yet the AF's own data suggests they have 
similar annualized O&M cost, and the C-5 already has a cheaper cost 
per-ton-mile. Trading serviceable C-5s simply doesn't seem to be good 
stewardship of the taxpayer's money, especially when C-5s carry twice 
as much cargo and you can RERP three C-5s for the cost of one C-17. It 
seems to me that a more balanced approach is the right way to go and 
that for the AF to enter into a trade--discussion is simply not the 
correct way to view the current situation. Why isn't a fully modernized 
111 C-5 fleet and 190 C-17s (or more if needed) an adequate solution? 
Why does the AF feel compelled to make this an either/or discussion on 
C-5As and C-17s?
    General Kane. Since the AMC Outsize and Oversize Cargo Analysis of 
Alternatives recommended modernization of the C-5 fleet in August of 
2000, projected modernization costs have risen significantly. 
Additionally, the C-5A fleet has begun to exhibit stress corrosion 
cracking that must be repaired. This further adds to the investment 
needed to maintain the viability of the fleet. Hence, the years 
required for operational cost savings from C-5 RERP to recover expenses 
of the program have increased. At current projected prices, an 
investment to modernize 40-year-old C-5s makes much less business sense 
than it did just a few years ago. Adding to this concern is the looming 
shutdown of the C-17 line, currently projected to start in October of 
this year and be complete in September 2009. Should production line 
shutdown begin, and we then decide to procure more C-17s, the cost to 
start a new aircraft line would be very high, not to mention the 
potential operational cost we'd pay as we dealt with the production 
gap.
    Operationally, the C-17 provides improved reliability over the C-5, 
even the fully modernized version, and is more flexible and responsive 
to warfighter needs with the ability to safely fly into more short and 
unimproved airfields. Overall, it's the best platform for providing 
enhanced support to the warfighter on a dispersed battlefield. To 
maintain our baseline strategic airlift capability we need a mix of C-
5s and C-17s. Current cost projections combined with the operational 
advantages of the C-17 point to the retirement of some of our oldest C-
5As and replacing them with newer, more flexible C-17s that cost less 
per flying hour.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. AKIN
    Mr. Akin. So if you are planning a mission and you have both of 
these rebuilt A models--unless you are a gambling man--you are going to 
send two sets of gear for every one that wants to land and do the job?
    General Kane. Some of the payloads the C-5 can carry are the Mark V 
Special Ops Patrol Boat and towing vehicle; Navy FFG-7 Frigate 
Reduction Gear on Light Tactical Vehicle (LTV); Navy Deep Submergence 
Rescue Vehicles on LTV; Space Shuttle Solid Rocket Motor and LTV; 
Minuteman SSCBM; and the Mobile Medical 53 ft. Hospital. These are six 
common ``C-5 only'' payloads as certified by the Air Transportability 
Test Loading Agency.

    1. Mark V Special Ops Patrol Boat and towing vehicle

    2. Navy FFG-7 Frigate Reduction Gear on LTV

    3. Navy Deep Submergence Rescue Vehicles on LTV

    4. Space Shuttle Solid Rocket Motor & LTV

    5. Minuteman SSCBM

    6. Mobile Medical 53 ft Hospital

    <box>  These are six common ``C-5 only'' payloads. See below for 
other ``C-5 only'' ATTLA certified loads

    Additional List of ``C-5 Only'' Items:

------------------------------------------------------------------------
 
------------------------------------------------------------------------
SEAWOLF PROPULSOR AND TALBERT HEAVY LIFT    TITAN IV STAGES 1 & 2 CORE
 TRANSPORTER.                                VEHICLE TRANSTAINER
------------------------------------------------------------------------
45 TON LIMA TRUCK CRANE                     TITAN IV UPPER FLIGHT
                                             SECTION UFS
------------------------------------------------------------------------
BATCH PLANT AGGREGATOR CEMENT MIXER         TITAN IV UPPER FORWARD
                                             ADAPTER SIMULATOR UFS
------------------------------------------------------------------------
MILLER ADVANCED TRANSPORTATION SYSTEM MATS  ATLAS II/CENTAUR II
 VAN
------------------------------------------------------------------------
ARBAU-KLAUS KM32 SIDE LOADING CRANE, ARBAU  AN/TSM-163 Maintenance
 KLAUS                                       Center-Battalion
------------------------------------------------------------------------
AFOG THEATER VAN WITH HYDRAULIC FIFTH       Small Repair Parts
 WHEEL TRACTOR                               Transporter (SMPT) M-1032
------------------------------------------------------------------------
BW SHIPPING CONTAINER TRAILBLAZER           AN/TSM-164 Maintenance
 COMPONENTS                                  Center-Battery
------------------------------------------------------------------------
AFE-PRO 93-03 SV-424 TRAILER AFE/PRO 93-03  DGA TRUMP D40-D DEICING
                                             TRUCK, DG-A DEICING TRUCK
------------------------------------------------------------------------
DSV SEACLIFF TURTLE                         MINI MUTES
------------------------------------------------------------------------
SM97,NAUTILE,FRENCH SUBMERSIBLE, FRENCH     M703 TRAILER, M-313 TRAILER,
 SUBMARINE                                   M-656 HMTT, S-280
------------------------------------------------------------------------
CATERPILLAR 3516 POWER PLUS MODULE          AN/TSQ-112 GENERAL PURPOSE
 GENERATOR/TRANSFORM                         DETECTING SET (TACELIS)
------------------------------------------------------------------------
S/C CONTAINER PPLU TRAILER TDRSS NASA       S101, S102 SHELTERS, M113
                                             PERSONNEL CARRIER
------------------------------------------------------------------------
GODDARD                                     MODIFIED
------------------------------------------------------------------------
GPS-12 SPACECRAFT                           AFRTS SYSTEM
------------------------------------------------------------------------
LMSC VBG EQUIPMENT                          VERTEX EARTH STATION, NABORS
                                             TRI-AXLE TRAILER
------------------------------------------------------------------------
HUGES SYNCOM IV LEASAT Spacecraft and       COMMUNICATIONS RESTORAL
 Associated Equip                            SYSTEM AN/TSC-115
------------------------------------------------------------------------
ESS SPACECRAFT TRANSPORTER/SPACECRAFT       DBA SYSTEMS ELECTRONICS
 HANDLING FIXTURE                            VANS, INTERNATIONAL F-2375
------------------------------------------------------------------------
XTE X-Ray Timing Explorer Transporter       MILSTAR MOBILE CONSTELLATION
 System                                      CONTROL STATION MMCCS
                                             (Lockheed)
------------------------------------------------------------------------
GLOBAL GEOSPACE SCIENCES (GGS) POLAR        DORSAY TRL.MODEL DDG &
 PROJECT SPACECRAFT/TRANSPORTER              FREIGHT -LINER TRACTOR
                                             MODEL 120
------------------------------------------------------------------------
TITAN II PAYLOAD FAIRING, MARTIN MARIETTA   MOBILE ADVANCE DISASTER
                                             ELEMENT - ONE (MADE-ONE)
                                             FEMA
------------------------------------------------------------------------
COMMERCIAL TITAN MISSILE, CORE VEHICLE      40 FOOT VAN ID# B17890 SV-
 STAGES I AND II                             459
------------------------------------------------------------------------
ARFOR Trailer (Mobile Training Classroom    Mobile Telemetry Data System
 with HVAC extension)                        (MTDS) Trailer
------------------------------------------------------------------------
P&H 430-ATC Crane (Harnischfeger)           JPL ELECTRONICS VAN TRAILER
------------------------------------------------------------------------
SMC Missile Transporter Tractor/Trailer     AN/MSQ-118, CSS SHELTER
------------------------------------------------------------------------
AVCATT-A Simulators & Electrical Equipment  AFE/PRO 94-01 ALUMINUM BODY
 Trailers                                    TS1 TRAILER
------------------------------------------------------------------------
USCENTAF 609 ACOMS Van Trailers             AFE/PRO 96-04 AND 96-05
------------------------------------------------------------------------
PTS Support Benson 48-ft aluminum single    Milstar Mobile Constellation
 drop flatbed                                Control Station (MMCCS)
                                             with Antenna Deployment
                                             Enhancement Sattelite
                                             Communication Control
                                             Central (SCCC) AN/TSQ-180VO
------------------------------------------------------------------------
PTS support Fontaine 48'-70' Single Drop    Mine Hunter
 flatbed (7D-FT-5-4AW Extend)
------------------------------------------------------------------------
PTS Support Great Dane 48-ft Flatbed        Advanced Seal Delivery
 trailers (GPS-248)                          System (ASDS) Navy & LTV
                                             Submersible on Trailer
------------------------------------------------------------------------
JSF F-35 Air Transportability & Wing        Thule Tracking Station A-
 Fixture                                     Side Upgrade Program
------------------------------------------------------------------------
CECOM Harris/Mobilized Systems 40' x 14' x  Deployable Trailers for AH-
 10.5' Shelter SEES & SBX (ref 2002.11.25)   64 Aircrew Trainer Devices
------------------------------------------------------------------------
Boeing Spacecraft Next Generation Shipping  AFE/PRO 00-01 (Stacked S/V
 Container                                   shipping container)
------------------------------------------------------------------------
CALIPSO Sattellite on NASA double drop      AFE/PRO 00-01 (Stacked S/V
 trailer                                     shipping container) Amended
------------------------------------------------------------------------
MK V Special Operations Craft (SOC),        Mobile Training Semi Trailer
 Production version with Trailer
------------------------------------------------------------------------
F-18 Recovery                               Medium Payload Transporter
------------------------------------------------------------------------
C-5 AMARC Horizontal Stabilizer Trailer
------------------------------------------------------------------------

                       ACTION OFFICER INFORMATION

------------------------------------------------------------------------
      Action Officer's Name and Phone               Office Symbol
------------------------------------------------------------------------
Lt Col Christopher Smith, DSN 779-2266      AMC/A8XL
------------------------------------------------------------------------

                              COORDINATION

--------------------------------------------------------------------------------------------------------------------------------------------------------
           Office Symbol                     Action                   Name                   Phone                   Date                 Comments
--------------------------------------------------------------------------------------------------------------------------------------------------------
AMC/DA5/8-1                          Coord                   Mr. Scott               779-3314               13 Apr
                                                             McMullen
--------------------------------------------------------------------------------------------------------------------------------------------------------
AF/A5RM                              Coord                   Col                     697-4939               17 Apr
                                                             Genshiemer
--------------------------------------------------------------------------------------------------------------------------------------------------------
AF/A5R                               Coord                   Brig Gen                695-3018               18 Apr
                                                             Sabol
--------------------------------------------------------------------------------------------------------------------------------------------------------
AF/A3/5                              Approve                 Lt Gen                  697-3331               19 Apr
                                                             Chandler
--------------------------------------------------------------------------------------------------------------------------------------------------------

                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. JOHNSON
    Mr. Johnson. The National Guard is responsible for Civil Support 
Teams (CST) to support homeland security threats (Biological, Chemical 
and Nuclear) in each state and territory. These teams consist of 22 
personnel and 8 vehicles and that must be air/land transportable and be 
able to deploy CONUS wide to support any and all threats in the three 
categories mentioned as well as natural disasters. However, I 
understand that these teams cannot be transported on the Army's two 
Twin-engine Joint Cargo Aircraft candidate aircraft due to the limited 
size of the cargo compartment. In these times of war and tight budgets, 
I am questioning if we have the luxury of purchasing an aircraft that 
has limited utility in the theater airlift mission and for Homeland 
Security mission without any flexibility for growth potential that may 
be required for future. Can you comment on these observations?
    General Kane. To address the main issue of purchasing the JCA at 
this time; the Air Force and the Army have collectively determined 
there is a need for JCA now and in the future. The JCA will have a dual 
role: Homeland Security/Defense, and a combatant commander support at 
home and abroad. The JCA will help satisfy the critical needs of the 
Combatant Commanders as well as Governors.
    The JCA fits a niche as a light cargo tactical airlifter. It will 
be capable of landing and taking off on short, unimproved surfaces 
while being able to carry as much as 6,000 pounds of cargo in a hot and 
high pressure altitude environment, much like Afghanistan or Nevada. 
Additionally, the JCA will be able to fly 1200 nautical miles with 
18,000 pounds of cargo.
    As the question relates to a CST package; the primary method to 
transfer a CST package to an incident is by land versus air due to 250 
NM response radius. CST's teams were established to deploy rapidly in 
order to assist local first-responders in determining the nature of an 
attack, provide medical and technical advice, and pave the way for the 
identification and arrival of follow-on state and federal military 
response assets.
    Currently, there are 55 CST packages that are strategically 
positioned throughout the United States. Stationing criteria used to 
identify the CST locations included coverage of major metropolitan 
areas based on population density; minimizing overlap with adjacent 
CSTs and other DoD response elements; and availability of existing 
facilities and support capabilities. The use of airlift requires 
coordination and additional time. The use of airlift is conditions-
based depending on the disaster scenario (e.g., earthquakes, weather) 
which causes decision makers to employ CSTs via the most expeditious 
means. Airlift is always a consideration; however, CST responders have 
built their Concept of Employment around ground movement. The JCA would 
augment responding forces especially to response times needed.
    If an incident location is greater than 250 miles away from the CST 
package, airlift may be considered; however, this is a decision for the 
supported COCOM to make (in this case USNORTHCOM) it would depend on a 
number of factors, such as weather, airfield availability/conditions. 
The current airlift requirement for a CST package is either 6 C-130's, 
2 C-17's, or 1 C-5.
    [See map and slides in the Appendix beginning on page 150.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. MEEK
    Mr. Meek. As you undertake the KC-X acquisition to buy the next 
generation Tanker, can you comment on how you will ensure our taxpayers 
get the best value (best capability for best price) for our future 
warfighting requirements?
    General Hoffman and General Kane. Our documented and approved KC-X 
acquisition plan and source selection strategy is based on obtaining 
the best value (best capability for best price) for the taxpayer, while 
meeting all warfighter Key Performance Parameter thresholds. We have 
provided excerpts from the KC-X Request for Proposal that highlight our 
focus on a best value source selection. Per the KC-X Request for 
Proposal, section M001 - SOURCE SELECTION, 1.1 Basis for Contract 
Award:
        ``The Government will select the best overall offer, based upon 
        an integrated assessment of Mission Capability, Proposal Risk, 
        Past Performance, Cost/Price and the Integrated Fleet Aerial 
        Refueling Assessment (IFARA). Contract(s) may be awarded to the 
        offeror who is deemed responsible in accordance with the 
        Federal Acquisition Regulations, as supplemented, whose 
        proposal conforms to the solicitation's requirements (to 
        include all stated terms, conditions, representations, 
        certifications, and all other information required by Section L 
        of this solicitation) and is judged, based on the evaluation 
        factors and subfactors, to represent the best value to the 
        Government. The Government seeks to award to the offeror who 
        gives the AF the greatest confidence that it will best meet, or 
        exceed, the requirements. This may result in an award to a 
        higher rated, higher priced offeror, where the decision is 
        consistent with the evaluation factors and the Source Selection 
        Authority (SSA) reasonably determines that the technical 
        superiority and/or overall business approach and/or superior 
        past performance, and/or the IFARA of the higher priced offeror 
        outweighs the cost difference. The SSA will base the source 
        selection decision on an integrated assessment of proposals 
        against all source selection criteria in the solicitation.''

                                  <all>

</pre></body></html>
